<html>
<title> - [H.A.S.C. No. 114-16] HEARING ON NATIONAL DEFENSE AUTHORIZATION ACT FOR FISCAL YEAR 2016 AND OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS BEFORE THE COMMITTEE ON ARMED SERVICES HOUSE OF REPRESENTATIVES ONE HUNDRED FOURTEENTH CONGRESS FIRST SESSION</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


 
                         [H.A.S.C. No. 114-16]

                                HEARING

                                   ON

                   NATIONAL DEFENSE AUTHORIZATION ACT

                          FOR FISCAL YEAR 2016

                                  AND

              OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                   SUBCOMMITTEE ON READINESS HEARING

                                   ON

                      ALIGNMENT OF INFRASTRUCTURE

                    INVESTMENT AND RISK AND DEFENSE

                         STRATEGIC REQUIREMENTS

                               __________

                              HEARING HELD
                             MARCH 3, 2015


                                     
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 

 
                                ___________
                                
                                
                         U.S. GOVERMENT PUBLISHING OFFICE
94-218                       WASHINGTON : 2015                         
                                  
______________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="5433243b14372127203c3138247a373b397a">[email&#160;protected]</a>  
                                     





                       SUBCOMMITTEE ON READINESS

                 ROBERT J. WITTMAN, Virginia, Chairman

ROB BISHOP, Utah                     MADELEINE Z. BORDALLO, Guam
VICKY HARTZLER, Missouri             SUSAN A. DAVIS, California
AUSTIN SCOTT, Georgia                JOE COURTNEY, Connecticut
ELISE M. STEFANIK, New York          JOAQUIN CASTRO, Texas
FRANK A. LoBIONDO, New Jersey        TAMMY DUCKWORTH, Illinois
MIKE ROGERS, Alabama                 SCOTT H. PETERS, California
CHRISTOPHER P. GIBSON, New York      TULSI GABBARD, Hawaii
STEVEN M. PALAZZO, Mississippi       BETO O'ROURKE, Texas
RICHARD B. NUGENT, Florida           RUBEN GALLEGO, Arizona
BRAD R. WENSTRUP, Ohio
SAM GRAVES, Missouri
               Michael Miller, Professional Staff Member
                Brian Garrett, Professional Staff Member
                        Katherine Rember, Clerk
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Bordallo, Hon. Madeleine Z., a Delegate from Guam, Ranking 
  Member, Subcommittee on Readiness..............................     2
Wittman, Hon. Robert J., a Representative from Virginia, 
  Chairman, Subcommittee on Readiness............................     1

                               WITNESSES

Ballentine, Hon. Miranda A.A., Assistant Secretary of the Air 
  Force, Installations, Environment, and Energy..................     5
Conger, John, Performing the Duties of the Assistant Secretary of 
  Defense, Energy, Installations, and Environment................     3
Hammack, Hon. Katherine, Assistant Secretary of the Army, 
  Installations, Energy, and Environment.........................     4
McGinn, Hon. Dennis V., Assistant Secretary of the Navy, Energy, 
  Installations, and Environment.................................     7

                                APPENDIX

Prepared Statements:

    Ballentine, Hon. Miranda A.A.................................    85
    Conger, John.................................................    39
    Hammack, Hon. Katherine......................................    64
    McGinn, Hon. Dennis V........................................    98
    Wittman, Hon. Robert J.......................................    37

Documents Submitted for the Record:

    ``Not Moving DGRC-Impact'' chart displayed by Mr. Bishop.....   115

Witness Responses to Questions Asked During the Hearing:

    Mr. Gibson...................................................   119
    Mr. Scott....................................................   119

Questions Submitted by Members Post Hearing:

    Mr. Bishop...................................................   132
    Ms. Bordallo.................................................   131
    Mr. Shuster..................................................   132
    Mr. Wittman..................................................   123
 
 ALIGNMENT OF INFRASTRUCTURE INVESTMENT AND RISK AND DEFENSE STRATEGIC 
                              REQUIREMENTS

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                                 Subcommittee on Readiness,
                            Washington, DC, Tuesday, March 3, 2015.
    The subcommittee met, pursuant to call, at 3:33 p.m., in 
room 2212, Rayburn House Office Building, Hon. Robert J. 
Wittman (chairman of the subcommittee) presiding.

 OPENING STATEMENT OF HON. ROBERT J. WITTMAN, A REPRESENTATIVE 
       FROM VIRGINIA, CHAIRMAN, SUBCOMMITTEE ON READINESS

    Mr. Wittman. We will call to order the Subcommittee on 
Readiness for the House Armed Services Committee. Today's 
hearing is on ``Alignment of Infrastructure Investment and Risk 
and Defense Strategic Requirements.''
    This is the first hearing of the 114th Congress. I would 
like to welcome back our returning members, especially the 
gentlewoman from Guam, Ms. Madeleine Bordallo. Thank you so 
much.
    As our ranking member she has done a fantastic job, and I 
look forward to another Congress where we can continue to work 
together and get great things done to solve the complex 
problems that we face in this nation's military readiness.
    And I want to welcome our new members here today as well. 
And I won't go name by name, but I look forward to working with 
each of you. And we have some very important and challenging 
issues ahead for us this year.
    For this hearing I would like to welcome our distinguished 
panel of experts. This afternoon we have with us Mr. John 
Conger performing the duties of the Assistant Secretary of 
Defense, Energy, Installations and Environment; Ms. Katherine 
Hammack, Assistant Secretary of the Army, Installations, Energy 
and Environment; Mr. Dennis McGinn, Assistant Secretary of the 
Navy, Energy, Installations and Environment; and Ms. Miranda 
Ballentine, Assistant Secretary of the Air Force, 
Installations, Environment and Energy.
    And this hearing today is critically important in helping 
us understand and evaluate this year's infrastructure budget as 
it relates to readiness. Although we recognize that the 
Bipartisan Budget Act of 2013 provided some release over the 
last 2 years, even if funded at the current President's budget 
request level, the Department continues to take risk in 
infrastructure in its effort to balance force structure, 
modernization, and readiness.
    The infrastructure budget that we have before us today 
includes $8.4 billion for military construction, family housing 
and BRAC [base realignment and closure]; $10.8 billion for 
facilities sustainment, restoration, and modernization, 
representing 81 percent of the total sustainment requirement; 
and a request for an additional round of base realignment and 
closure with a $10.5 million request for BRAC analytical 
efforts.
    As the witnesses today testify, I would ask that you 
address the following questions. How has the Department aligned 
infrastructure investments with the long-term defense strategic 
requirements? What level of risk in installations has the 
Department taken on? And what mitigation efforts has the 
Department implemented or plans to implement in the 
installations portfolio?
    I would like now to turn to our ranking member, Madeleine 
Bordallo, for any remarks that she may have. Madeleine, thank 
you very much.
    [The prepared statement of Mr. Wittman can be found in the 
Appendix on page 37.]

STATEMENT OF HON. MADELEINE Z. BORDALLO, A DELEGATE FROM GUAM, 
           RANKING MEMBER, SUBCOMMITTEE ON READINESS

    Ms. Bordallo. Thank you, Mr. Chairman. And I too--it is an 
honor to serve with you again as the ranking member on the 
Readiness Subcommittee. And I thank all of our witnesses for 
their testimony today.
    This committee's focus is on the readiness of our armed 
services. Though sometimes overlooked, the Department's 
infrastructure is the platform from which it generates the 
military readiness. The airfields our military operates from, 
the ranges where they train, and the facilities that support 
the maintenance of weapons systems all contribute to the 
overall readiness of the force.
    In recent years the amount of investment in infrastructure 
has assumed a certain level of risk due to budget pressures 
placed on the Department. And this has meant deferring 
maintenance of facilities and postponing the recapitalization 
of aging infrastructure.
    As this committee begins its review of the President's 
budget request for fiscal year 2016, I am encouraged to see the 
increased level of investment in our military's infrastructure, 
especially to support the rebalance of the Asia-Pacific region.
    However, if we are to sustain and continue this important 
investment, it is absolutely critical that Congress removes the 
Budget Control Act. Failing to repeal sequestration will 
undermine our Nation's military, including these infrastructure 
investments.
    The current budget proposal already assumes a level of 
risk. But going below these levels is simply, simply 
unacceptable. These infrastructure investments support the 
Department's ability to generate readiness. And we have placed 
significant risk on future readiness by delaying needed 
maintenance and recapitalization of our facilities over the 
last several years.
    The President's budget is a step in the right direction. 
But we cannot let the investment go below that level.
    So I am encouraged by the progress being made in the 
realignment to the Asia-Pacific region, and I believe there are 
important investments to support this strategy in the fiscal 
year 2016 budget submission.
    In cooperation with the government of Japan, a steady 
stream of funding has been programmed to support the 
realignment of Marines from Okinawa to Guam, and the 
infrastructure investments associated with the move. And I 
fully support this continued effort.
    And with that, I yield back, Mr. Chairman. And I look 
forward to the testimonies of our witnesses.
    Mr. Wittman. Thank you so much, Ms. Bordallo.
    Witnesses, as you can see from the length of mine and the 
ranking member's opening statement, we intend to keep today's 
opening statements brief. So I would ask, if you would, if you 
have an opening statement, we will take everything that you 
have for the record. But I would ask that in your opening 
statements that you keep things brief and to the point so that 
we can maximize the interaction between members and our 
witnesses.
    Mr. Conger, we will begin with you.

    STATEMENT OF JOHN CONGER, PERFORMING THE DUTIES OF THE 
  ASSISTANT SECRETARY OF DEFENSE, ENERGY, INSTALLATIONS, AND 
                          ENVIRONMENT

    Mr. Conger. Chairman Wittman, Ranking Member Bordallo, 
distinguished members of the subcommittee, I appreciate the 
opportunity to discuss the Department's fiscal year 2016 budget 
request for energy, installations and environment.
    My written statement addresses the budget request in 
detail. So instead of summarizing it, I would just like to 
raise two topics for you to consider as we enter into today's 
discussion.
    First, we cannot contemplate the budget request without 
considering the context of the Budget Control Act [BCA] caps. 
The Department submitted a budget request that was $35 billion 
higher than the caps and $38 billion higher than last year. 
Forcing us to adhere to the caps would have reverberations 
across the budget.
    The President's budget request includes a significant 
increase for facilities over last year's request. That is 
nearly $2 billion increase in MILCON [military construction] 
and $2.5 billion in facilities sustainment and 
recapitalization.
    Legislation will be required to provide relief from the BCA 
caps. And the relief provided--like the relief provided by the 
Bipartisan Budget Act a couple of years ago.
    If you must adhere to the BCA caps, Congress will have to 
cut $35 billion from our request, and that will certainly 
have--it will certainly have to consider cutting funds from the 
request for facilities.
    The second topic that I wanted to raise for your 
consideration as we go forward is BRAC. It should be no 
surprise that we are again requesting authority to conduct a 
BRAC round.
    As we deal with this constrained budget environment, with 
considerable force structure decreases since 2005, we must look 
for ways to divest excess bases and to reduce the cost of 
supporting our smaller force structure. A few key points I 
wanted to lay out in support of our request for BRAC.
    First, the Army and Air Force have done analyses indicating 
that they have 18 percent and 30 percent excess capacity, 
respectively. And I will note that the Army's analysis is based 
on a 490,000-soldier figure, not the projected 450,000. This 
aligns with our prediction based on the analysis performed in 
2004 that we have significant excess capacity that would point 
to the need to have a BRAC round.
    Second, partially in response to Congress's urging, we 
conducted a BRAC-like review of European facilities, delivered 
to Congress in January of 2015, which we project will save more 
than $500 million annually once implemented. I would be happy 
to discuss that as well.
    And third, in this budget environment a new BRAC round 
would have to be focused on efficiencies. I know BRAC 2005 was 
unpopular. But the recommendations from that round that were 
designed to save money, did.
    And the reason that the round cost so much was because we 
accepted a large number of recommendations that were not 
designed to save money. If you break out the roughly half and 
half of the recommendations, half of the recommendations were 
not designed to save money within 7 years.
    Those cost $29 billion and only had $1 billion of recurring 
savings annually. That is not based on a business case. That 
was based on things that we decided we needed to do.
    The other half of the recommendations were designed to save 
money, and they cost $6 billion and returned $3 billion a year 
annually. Spending $6 billion to get $3 billion a year, that is 
a good business case. And what that shows is when we do try to 
save money, we can.
    The new issue that I have heard raised this year is that we 
can't expect Congress to pass our legislative proposal for BRAC 
because it mirrors the 2005 BRAC legislation. I understand the 
reality that no matter how many times the administration 
asserts that a future BRAC round will be about cost savings, 
Congress may want more than just our assurance. We can't just 
say trust us.
    And so let me be clear. We are open to a discussion on this 
point. And I would like to solicit your suggestions as to 
specific changes in the BRAC legislation that would make it 
more acceptable. We want to know what would address your 
concerns.
    Thanks for the opportunity to testify. And I look forward 
to the discussion.
    [The prepared statement of Mr. Conger can be found in the 
Appendix on page 39.]
    Mr. Wittman. Thank you, Mr. Conger.
    Ms. Hammack.

STATEMENT OF HON. KATHERINE HAMMACK, ASSISTANT SECRETARY OF THE 
          ARMY, INSTALLATIONS, ENERGY, AND ENVIRONMENT

    Secretary Hammack. Chairman Wittman, Ranking Member 
Bordallo and other members of the committee, thank you for the 
opportunity to discuss the Army's 2016 military construction 
budget.
    The velocity of instability around the world has increased. 
And the Army is now operating on multiple continents 
simultaneously in ways unforeseen a year ago. Although we 
believe we can meet the primary missions of the Defense 
Strategic Guidance today, our ability to do so has become 
tenuous.
    Fiscal challenges brought on by the Budget Control Act 
strain our ability to bring into balance readiness, 
modernization and end strength. Even as demand for Army forces 
is growing, budget cuts are forcing us to reduce end strength 
and base support to dangerously low levels. We face a mismatch 
between requirements and resources.
    Although for 2016 the Army is asking for a 26 percent 
increase from fiscal year 2015 in military construction, family 
housing and the base closure activities, our $1.6 billion 
request is a 33 percent reduction from 2014 and a 55 percent 
reduction from 2013.
    As force structures decline we must rightsize the 
supporting infrastructure. We must achieve a balance between 
the cost of sustaining infrastructure and Army readiness.
    Degraded readiness makes it more difficult for us to 
provide for the common defense. The BCA increases risk for 
sending insufficiently trained and underequipped soldiers into 
harm's way. And that is not a risk our Nation should accept.
    We need a round of base closure and realignment in 2017. 
Without a BRAC and the realized cost savings, the only 
alternative is to make up for shortages in base funding by 
increasing risk in readiness.
    We conducted a facility capacity analysis, as John Conger 
mentioned, based on our 2013 audited real property data, and 
determined that our excess facility capacity will be 18 percent 
when we reach 490,000 at the end of this year. As we shrink 
further, more excess capacity is created. We must size and 
shape Army facilities for the force we support.
    The European Infrastructure Consolidation [EIC] review 
addressed excess capacity in Europe. For the Army an investment 
of $363 million results in annual savings of $163 million, 
which is less than a 3-year payback.
    We are now facing critical decisions that will impact our 
capability and capacity for the next decade. It is important 
that we make the right decisions now. Without savings from a 
BRAC round, the risk is that the installations will experience 
larger cuts than would otherwise occur.
    We look forward to working with Congress to ensure the Army 
is capable of fulfilling its many missions. And on behalf of 
soldiers, families, and civilians in the best Army in the 
world, thank you for your support and the opportunity to 
discuss the Army's budget. I look forward to your questions.
    [The prepared statement of Secretary Hammack can be found 
in the Appendix on page 64.]
    Mr. Wittman. Thank you, Ms. Hammack.
    Ms. Ballentine.

STATEMENT OF HON. MIRANDA A.A. BALLENTINE, ASSISTANT SECRETARY 
    OF THE AIR FORCE, INSTALLATIONS, ENVIRONMENT, AND ENERGY

    Secretary Ballentine. Chairman Wittman, Ranking Member 
Bordallo, esteemed members of the committee, it is my honor and 
privilege to be here to testify before you today to discuss the 
Air Force's installation, environment, and energy budget.
    I thank you for your support in giving the Air Force much 
needed relief in 2014 and 2015 from untenable sequestration 
levels. Without Budget Control Act relief in fiscal year 2016, 
the risk assumed to Air Force infrastructure could have sober 
impacts to Air Force readiness. The Air Force strives to ensure 
airmen have ready installations, resilient environmental 
infrastructure, and reliable energy.
    As of today I have been on the job for 135 days. I have 
visited 10 bases in those 22 weeks. And I have looked at 
hundreds of facilities where our aircraft are maintained, where 
our airmen work, and where our military families live. And from 
those travels I can tell you there is more we can do to improve 
the affordability and viability of our installations, which 
today are simply too big, too old, and too expensive to 
operate.
    The Air Force has about 30 percent excess infrastructure 
capacity, as Mr. Conger alluded to. Our facilities have an 
average age of 40 years old, and many are much older. In fact 
about a quarter are over 50 years old. And if you combine 
excess infrastructure capacity with aging buildings, the bottom 
line is that our facilities and installations are simply too 
expensive.
    When facing unaffordable installations, there are really 
only two ways to get at the problem. You can either spend more 
money on them or you can make them cost less. It is a pretty 
simple equation.
    Therefore, rather than living with forced sequestration 
levels, we are requesting installation budget figures in fiscal 
year 2016 substantially closer to what we need. And the Air 
Force is supporting OSD's [Office of the Secretary of Defense] 
request for a base realignment and closure round in 2017, which 
will allow us to comprehensively, transparently align 
installation and infrastructure with our mission imperatives.
    The fiscal year 2016 budget that the Air Force is 
requesting allows us to begin to chip away at the backlog of 
infrastructure recapitalization needs and maintenance that has 
contributed to the degradation of our combat readiness. Our 
$1.6 billion fiscal year 2016 MILCON request is more than 65 
percent higher than last year. Our $3.2 billion PB [President's 
budget] 2016 request for FSRM [facilities sustainment, 
restoration, and modernization] is more than 35 percent higher 
than last year.
    In addition to MILCON, O&M [operations and maintenance], 
and BRAC, I am also really excited about accelerating the use 
of additional tools to help our installations be more 
affordable. Tools like enhanced use leases have proven 
successful in leveraging other resources to meet our 
requirements.
    Power purchase agreements and energy service performance 
contracts have helped the Air Force cut electricity prices and 
get renewable energy with no capital outlays. Community 
partnerships, which you may know as P4 from some of your 
communities, allow us to leverage the resources and 
capabilities of our community members.
    Taken together, improved MILCON and facilities O&M budgets, 
plus BRAC, and the range of other tools and programs that I 
have described really make me optimistic that we can restore 
the Air Force infrastructure to the place it needs to be.
    Chairman, Ranking Member Bordallo, members of the 
committee, thank you again for the opportunity to represent 
America's airmen today. And I ask for your full support of the 
fiscal year 2016 request, and look forward to taking your 
questions.
    [The prepared statement of Secretary Ballentine can be 
found in the Appendix on page 85.]
    Mr. Wittman. Thank you, Ms. Ballentine.
    Mr. McGinn.

STATEMENT OF HON. DENNIS V. McGINN, ASSISTANT SECRETARY OF THE 
          NAVY, ENERGY, INSTALLATIONS, AND ENVIRONMENT

    Secretary McGinn. Chairman Wittman, Ranking Member 
Bordallo, members of the committee, thank you for the 
opportunity to present the Department of the Navy, Navy and 
Marine Corps' shore readiness overview.
    The difference between requirements and resources equals 
risk. And I think the focus that, Mr. Chairman, you laid out is 
right on the mark. We need to assess how much that risk is, how 
it manifests itself, and what we can do to mitigate it.
    I am glad to report that in our budget submittal for this 
year we are starting to make progress in addressing the delta 
between our requirements and our resources. However, we still 
have a ways to go. And there are risks that persist.
    As Ranking Member Bordallo pointed out, these installations 
do represent the jumping off platform and the place you come 
home to after going to serve our Nation's security in all parts 
of the world.
    And our Navy and Marine Corps team deserve the absolute 
very best in terms of mission readiness that is delivered 
through our shipyards, our readiness centers, our bases that 
support them, in many cases in real time while they are 
conducting operations overseas in combat.
    So thank you again for holding this hearing. And I look 
forward to your questions.
    [The prepared statement of Secretary McGinn can be found in 
the Appendix on page 98.]
    Mr. Wittman. Thank you, Mr. McGinn.
    In the interest of making sure that we get to all of our 
committee members today for questions I am going to delay my 
questions until the end. And we will go now to Mr. Bishop.
    Mr. Bishop. Thank you, Mr. Chairman.
    I appreciate all our guests being here. I appreciate your 
testimony. There are many things upon which I think we can 
agree. And you have also given us a chance to say no again. So 
I appreciate that testimony.
    Ms. Hammack, if I could address you with a parochial issue 
I would appreciate that opportunity. As you know the DGRC 
[Defense Generator and Rail Equipment Center], the rail 
facility at Hill Air Force Base in my district, I have not 
heard much from that lately. Are the negotiations progressing 
in moving that antiquated facility?
    Secretary Hammack. No. The Army has no plans to move the 
DGRC that is currently located----
    Mr. Bishop. Okay.
    Secretary Hammack [continuing]. At Hill Air Force Base.
    Mr. Bishop. Thank you. Thank you for the answer. Not a good 
answer, but I thank you for the answer.
    As you know, the enhanced use lease project is going to 
create another 15,000 jobs, hopefully that will give us a 
chance to force train re-modernize that particular base. As you 
understand, let me just show you. This area is your facility 
right through here.
    [The chart displayed by Mr. Bishop can be found in the 
Appendix on page 115.]
    Mr. Bishop. This is obviously what Utah Transportation 
Authority is going to have to do to go around you at a great 
deal of expense, obviously, to the State of Utah. But what that 
does, if you can see, is it puts you outside the parameter of 
the gate, which simply means that there will have to be an 
additional gate for that facility which would require 
additional guards 24/7.
    Hill does not have for this Army facility on an Air Force 
base--they are not the--Air Force is not giving additional 
manpower billets to Hill. So how does the Army want to help 
account for this extra requirement and cost that building a new 
gate as well as facilities and maintenance of that particular 
area?
    Secretary Hammack. The Army does not have the budget to 
move that mission and there is no military reason to move the 
mission.
    Mr. Bishop. Well, let me--oh, good. I am glad you said that 
because the Army Corps of Engineers recently did a study and 
they estimated the cost of relocating to Anniston, minus 
personnel costs, would be approximately $11 million.
    However, I understand that you are planning in your budget 
to appropriate $11 million to fix up the rails that are going 
into that antiquated building, just the rails alone, not the 
building itself.
    The Army Corps also did in their study said that you would 
recoup that money within 11 years if you are actually moving 
that into a modern facility that can actually meet the needs of 
the Army.
    So since you are going to spend the amount of money one way 
or the other, why would you actually--why in the world would 
anyone want to spend that much money for the rails into an 
antiquated facility when you can actually get a better facility 
if you just spend the money the first way of moving it, which 
is the right thing to do? Why in heaven's name would you not 
want to do that?
    Secretary Hammack. The cost to move is estimated at $17 
million.
    Mr. Bishop. That is not what the Army Corps of Engineers 
did in their study. It is $11 million, $11 million. You are 
spending the same amount of money.
    Secretary Hammack. And the cost----
    Mr. Bishop. Why are you still so stubborn about this?
    Secretary Hammack [continuing]. To fix the tracks is 
estimated around $9 million.
    Mr. Bishop. Once again that is not what the study came up 
with.
    Secretary Hammack. We seem to have different numbers. Right 
now----
    Mr. Bishop. We certainly do.
    Secretary Hammack [continuing]. There is no military reason 
to move the mission off of Hill Air Force Base where it has 
been since the 1940s.
    Mr. Bishop. Then how are you going to fund the extra gate, 
the extra manpower, the extra maintenance equipment? How are 
you going to fund that? Or are you just going to shove that 
onto the Air Force so they have to fund the extra stuff.
    Secretary Hammack. Currently the enhanced use lease has not 
moved into this area. They have not developed this area. And we 
have not seen a timetable for their planned development.
    Mr. Bishop. Ms. Hammack, you know it is moving to that 
area. We have the timetable. We have the plans. You have seen 
that not only from the State, but also from the Air Force.
    You still are not moving that. If you are going to spend 
$11 million one way or the other, why not do it the intelligent 
way?
    And maybe you can tell me from whence is this $11 million 
coming in the first place? What pot have you found that to try 
and redo the rails and only the rails going into an old 
building?
    Secretary Hammack. The rail improvement has to do with 
life, health, safety reasons for the current mission at Hill 
Air Force Base.
    Mr. Bishop. So from what pot of money is that coming?
    Secretary Hammack. It is coming from sustainment, 
restoration, and modernization.
    Mr. Bishop. So you couldn't use that to actually put it 
into a new modern facility that would recoup its benefits 
within 3 years?
    Secretary Hammack. No. That would take military 
construction and we don't have the budget to move that 
mission----
    Mr. Bishop. Oh. So you can't move money from one budget to 
another one? You insist on finding a way from moving your--from 
moving the same amount of money from one pot to the other pot. 
Is that what you are telling me?
    Secretary Hammack. I would say if you approve a BRAC this 
would be something that would be----
    Mr. Bishop. If we approved a BRAC nothing would change at 
all. If you have got the money, you have got the money. If you 
don't have the money, you don't have the money.
    But this is one of those things that I don't understand the 
stubbornness of the Army in not looking at the broader issue 
and realizing there is a better way of doing this.
    And with that, if you have a response that is going to make 
me happy within the next 34 seconds because that is all I got, 
go for it. Otherwise, I will still be mad.
    I will still be mad. I yield back.
    Mr. Wittman. Thank you, Mr. Bishop.
    Ms. Bordallo.
    Ms. Bordallo. Thank you, Mr. Chairman.
    Secretary McGinn, I have a question for you. Can you give 
me an update on the expected release date of the final 
supplemental environmental impact statement, and the record of 
decision regarding the Marine realignment?
    And the second part of the question also can you comment on 
why the Navy has requested funds for the live-fire training 
range at Northwest Field, even though the NEPA [National 
Environmental Policy Act] process has not concluded yet?
    Secretary McGinn. I will answer the second question first. 
We have requested those funds in anticipation that the NEPA 
process will have been completed, in order to execute those 
funds in fiscal year 2016.
    The process leading us through the supplemental 
environmental impact statement is going well. We anticipate 
being able to sign a record of decision no later than the end 
of this spring. And we are working very, very closely with 
other Federal entities to make sure that there aren't any 
showstoppers between now and then.
    As you know, there has been a lot of work that has gone 
into this, a lot of analysis. But I feel confident at this 
point to say that we will bring the process to a successful 
conclusion and we will have a record of decision. And we will 
be able to execute those funds for the live-fire training 
facility.
    Ms. Bordallo. Thank you very much.
    Mr. Conger, can you give us an update on the EAC [Economic 
Adjustment Committee] process regarding impacts to Guam 
associated with the Marine realignment? And can you discuss the 
findings and the results of last year's meeting? Has anything 
changed regarding civilian infrastructure requirements over the 
past year?
    Mr. Conger. Sure. So as you recall, last June we had a 
formal EAC meeting, Economic Adjustment Committee meeting. It 
is a Federal interagency meeting. You were there. The governor 
sent remarks. And we were able to discuss the fact that the 
plan has significantly changed.
    The impacts are going to be significantly reduced. But we 
needed to still assess what those impacts were going to be and 
come up with cost estimates for how we were going to be able to 
mitigate the impacts that we were going to have through the 
rebasing action that we were contemplating.
    That analysis is ongoing. But based on what I have seen 
preliminarily, the cost will be significantly less than what we 
were originally projecting based on the original EIS 
[environmental impact statement]. I think that makes sense. 
When you significantly reduce the footprint you are going to 
have significantly smaller impacts.
    I think the Department is committed to mitigating the 
impacts that we have. But the final study with those cost 
estimates will not be released until or approximately the same 
time as the ROD [record of decision] comes out, because we want 
them to agree.
    We are working in conjunction with the folks working the 
supplemental EIS. And they are going to be synergistic 
documents.
    Ms. Bordallo. Thank you very much.
    And Mr. Chairman, I have a couple other questions. But if 
we do a second round I will continue. So I yield back.
    Mr. Wittman. Thank you. We will definitely do a second 
round.
    We will now go to Ms. Stefanik.
    Ms. Stefanik. Thank you, Mr. Chairman. Thank you to all the 
witnesses here today. My question is for Ms. Hammack.
    Noncommissioned officers [NCOs] are the backbone of the 
armed services. They are responsible for executing missions, 
training younger enlisted service members, and guiding young 
junior officers.
    NCOs are such a strategic feature in the U.S. Army. And the 
President's fiscal year 2016 budget permits the construction of 
an NCO training center at Fort Drum in New York's 21st 
District, which I have the honor of representing.
    The academy will be built in place of the current 
dilapidated World War II-era buildings. Regrettably, this 
imperative project runs the risk of being cancelled due to 
sequestration and the Budget Control Act.
    Can you share with the other members here today other 
examples of failing Army infrastructure due to fiscal year 2013 
sequestration, or lack of maintenance and modernization 
efforts, or potential projects or missions that will be 
discontinued?
    Secretary Hammack. Thank you for the question. You are 
absolutely right. Due to the impacts of sequestration in fiscal 
years 2013 and 2014, we have an increasing number of failing 
facilities.
    Right now 7 percent of Army's facilities are in failing 
condition, yet they still have operating units in them. Twenty-
four percent of Army facilities are in poor condition. And the 
number of failing or poor increases every year.
    Sustainment is the lowest cost method of maintaining a 
building. You sustain it. If you do not sustain a building 
properly, if you underinvest, then it falls into restoration 
and modernization.
    Instead of fixing one leak you have to replace a roof. It 
is much more costly. And so we saw a 9 percent increase in 
requirements for restoration and modernization directly due to 
impacts of underfunding in 2013 and 2014 due to sequestration.
    The risk is, though, as we do not have enough money in 
restoration and modernization, you increase those buildings 
that are failing, and those are the ones that have to be 
replaced with MILCON, which is even a much higher cost. So we 
are increasing the cost for future generations due to 
sequestration right now.
    Ms. Stefanik. My follow-up question, you just stated the 
high percentage of installations that are in failing condition 
or poor condition. As we continue to have this conversation 
about BRAC, shouldn't the Army be doing its job and investing 
in installations that are in poor or failing condition?
    Secretary Hammack. The Army is working to invest in failing 
facilities. As a matter of fact, some of the projects that are 
on the MILCON list for fiscal year 2016 are to replace failing 
facilities. One is the wastewater treatment plant at West 
Point. And so the low amount of dollars we have we are using to 
invest in failing facilities.
    The challenge is that facilities are failing at a rate 
faster than we are being funded. So we get into a requirements-
versus-resources issue. We are underfunded and we have more 
requirements than the budget is allowing us to fix. So that 
results in an increasing number of failing facilities.
    Ms. Stefanik. For the record I want to state my support of 
the construction of the NCO training center at Fort Drum. Thank 
you for the answers to the question. I do believe that we need 
to be focused on making sure that our poor or failing condition 
installations receive the funding that they need, especially 
Fort Drum.
    And I yield back.
    Mr. Wittman. Thank you, Ms. Stefanik.
    We will now go to Mr. Courtney.
    Mr. Courtney. Thank you, Mr. Chairman. And thank you to the 
witnesses. First of all I just want to again publicly 
acknowledge Mr. McGinn, your work with the State of Connecticut 
at the Groton sub [submarine] base.
    The microgrid project, which is a collaboration between the 
State government, private utility stakeholders, as well as the 
Navy, is in my opinion the model for how to sort of deal with 
that basic infrastructure, particularly for coastal areas where 
climate change is going to require hardened sources of energy. 
Again, you have been doing great work and it is much 
appreciated.
    During the testimony this afternoon your colleagues were 
pretty specific about analysis that was done to identify excess 
capacity. I think it was 30 percent in the case of the Air 
Force, Ms. Ballentine, and Ms. Hammack it was 18 percent.
    Your testimony didn't include that kind of analysis. And I 
am curious whether the Navy has looked at a similar projection 
that you could share.
    Secretary McGinn. We have not yet done a capacity analysis. 
As you may know, starting in 1991 with the very first BRAC, the 
Department of the Navy, and since then, has closed 56 major 
installations. We have closed overall all installations over 
250.
    As a result, the match of our force structure, our end 
strength, and our facilities is a little bit closer, perhaps, 
than my colleagues in the Army and the Air Force. However, we 
would welcome a BRAC and its disciplined analysis in which we 
are able to make business cases for having the alignment right 
or not.
    But we are prepared, and we worked very closely with Mr. 
Conger and his staff, and coordinate with my service 
counterparts to make sure that we are using the best tools 
available to determine if we do have excess capacity.
    Mr. Courtney. So, again, looking recently Admiral Greenert 
when he was asked about BRAC, and I am quoting him right now, 
``I am always open to a BRAC. It is a good process. But I am 
satisfied with the Navy's infrastructure as it exists today, 
base infrastructure, in that in the Navy I am satisfied with my 
base laydown there in that regard.''
    So again, just so I understand better the value of a BRAC 
to the Navy. It is really just kind of a stress test? Or you 
know----
    Secretary McGinn. It--that is a good analogy I think, a 
stress test. And I would say that had we not had prior BRAC 
rounds, we would be in really, really rough shape in terms of 
our shore readiness, our infrastructure mismatch. And I think 
that is the case certainly across the whole Department of 
Defense.
    So we would welcome it. We always look for ways to do the 
right thing in terms of matching the resources where they can 
do the most good in terms of readiness outcome. But--and we are 
prepared to participate fully in another round of BRAC.
    Mr. Courtney. Okay. Thank you for your answer.
    Mr. Conger, in your testimony, which I didn't get a chance 
to get around to, you talked about housing issues that you are 
in charge of or overlooking. The privatization of base housing 
has been, in my opinion, a great success.
    The transformation that has occurred at the Navy base in 
Groton, which again, was actually kind of disgraceful in terms 
of the conditions that sailors and their families were living 
in, has been just again completely changed because of the 
infusion of new capital that the developers have sort of 
brought to the table.
    But I would just share with you. There is one unintended 
effect, which is again the terms of these developments is that, 
again, military personnel get first dibs. Federal employees get 
second dibs. And if there are unoccupied units then the units 
are made available to nonaffiliated families.
    In Groton right now there are about 100 to 130 
schoolchildren that are attending Groton schools because the 
development is property tax exempt. And they get no Impact Aid 
because they don't fall into the Impact Aid sort of 
classification. The host community ends up taking the hit in 
terms of the per pupil expenditure for schools there.
    And I am on the Education Committee. We looked at this 
question a little bit in terms of the ESEA [Elementary and 
Secondary Education Act] bill. It is not something that really 
is ripe yet for an amendment.
    But we are working with the Impact Aid community out there. 
And I hope, again, we can reach out to you and your staff in 
terms of trying to get an acceptable situation.
    The host communities are doing the right thing educating 
these kids when their parents are off serving the country. And 
we should make sure that again, they don't get sort of left 
holding the bag in terms of the cost of that. And with that, I 
would yield back.
    Mr. Wittman. Thank you, Mr. Courtney.
    And now we are going to go to Mr. Nugent.
    Mr. Nugent. Thank you, Mr. Chairman.
    And one of the questions--and I am not as some of my 
colleagues are absolutely opposed to BRAC. I am not. But I 
haven't been convinced that we are in a position--I see the 
numbers. I--particularly I know the Army's numbers in regards 
to reductions.
    What I am concerned about is 3 years from now, 4 years from 
now we change the metric and we change where we are with 
regards to reduction of forces. Because I think that most of us 
on Armed Services agree that we are not in a good spot in 
regards to our force structure.
    So putting all that into place that we actually could be 
above those numbers or equal to the numbers that we are at this 
year, how do you fix that so you are not coming back here 4 
years from now or 5 years from now saying oh my gosh, you know, 
you all got your act together. You got rid of sequestration. We 
are actually funding the military at the proper level. And now 
we need more capacity. How do you assure us of that?
    Secretary Hammack. When we look at BRAC we look at many 
different factors. And we also look at a 20-year force 
structure plan. But if you think back, the Army at World War II 
was a force of 8 million. We built warehouses and barracks and 
office buildings and training locations for a force of 8 
million.
    And through the years we have reduced our excess 
infrastructure. But we have excess infrastructure left over 
from World War II, whether they are barracks or office 
buildings or dining facilities or stuff that we have never 
completely sized down to a force of 490,000, which is where we 
will be at the end of this year.
    Mr. Nugent. So if we go back to 562,000, let's just say, 
for the sake of argument, if you resize your capacity in 
housing and structures, how is that going to affect us if we do 
go back to that number?
    Secretary Hammack. There are many different things that we 
can do. One of the highest military values is training lands, 
land on which you can train soldiers. When you talk about 
housing soldiers, there are many different ways to house 
soldiers. Whether you are talking about tents or whether you 
are talking about two per room.
    In the last 10 years we have doubled the size of a dorm or 
a barracks room to the point where you can put a bunk bed in 
there and it can be just as comfortable as a dorm room at a 
university. So we have the surge capability to expand and 
contract the Army.
    What we want to do is what we did in the European 
infrastructure analysis, which is consolidate to our most 
critical, most important assets to give us that flex capability 
to better manage the budgets that we have. Otherwise we are 
spreading a smaller budget across the same number of 
installations. And when you underman or when you have empty 
buildings they decay faster than occupied buildings.
    We would like to put some of these buildings into 
productive reuse in communities. And if you look at BRAC there 
are many success stories in communities where there are now 
community colleges or business parks.
    One is in Massachusetts, Fort Devens where there is now a 
movie studio. There is a billion-dollar Behr manufacturing 
plant. The Guard and Reserve are using the training lands. The 
old cantonment area, there is a new hotel in there. There are 
restaurants in there.
    It has turned into a very vibrant business park. And it 
supports the Reserve and Guard mission. So I think there are 
many opportunities for us to become more efficient in our real 
estate so that we can continue to support the military for the 
long term.
    Mr. Nugent. I would hope it would not--BRAC, if it ever 
gets to that point, that the training facilities is paramount. 
I have three sons currently in the Army, two Active Duty, one 
National Guard Black Hawk pilot. And their ability to have 
those areas is paramount to their mission.
    And I just want to give you a side note. When my older son 
came back from Afghanistan, and I want to say it was 2008-2009, 
back to Fort Bragg, and there was a huge, if you remember, 
there was a huge uproar because they were supposed to come back 
to new barracks and they came back to the same junk that they 
were in when I saw my son off, my wife and I.
    So what you have done, though, has been remarkable. I will 
tell you the privatization at Fort Rucker and other areas where 
I have had other--my other sons at, they have done an excellent 
job. I will give you credit that you have really done a good 
job in those areas.
    So I want to thank you for that. And I yield back.
    Mr. Wittman. Thank you, Mr. Nugent.
    And we will now go to Mr. O'Rourke.
    Mr. O'Rourke. Thank you, Mr. Chairman.
    I wanted to begin by asking Ms. Hammack to follow up on a 
comment that she made. It seemed like you were providing us a 
choice between sustaining infrastructure that we might not need 
and readiness. And I would like you to sharpen that point, if 
you will, and tell us just exactly what is at stake in terms of 
the readiness.
    Secretary Hammack. What is at stake in readiness is our 
ability to fund training, our ability to ensure that soldiers 
are trained and equipped. So when we look at our budget it is a 
balance. And as we are reducing force structure, we can't 
reduce force structure at the same pace as we are asked to 
reduce budgets.
    So then you look at reducing training. Well, we don't want 
to deploy an untrained solider. Then you look at reducing 
equipment. But we don't want to underequip a soldier.
    And so the last part of the budget pot is sustainment on 
our installations. And we have cut that to bare bones level. We 
are right now maintaining or sustaining our installations to 
life, health, safety levels.
    Mr. O'Rourke. Can you--you also touched upon this, but I 
wondered if you have some numbers to really drive it home. You 
talked about the cost of deferred maintenance.
    You know if you are going to patch a leak in the roof in 
year 1 and you don't and you wait until year 10 and you have 
got to replace a whole roof. What--in numbers what is that 
costing us, that opportunity to fix it today versus waiting for 
it to metastasize 10 years down the road?
    Secretary Hammack. Let me give you a scale of costs. If you 
think just bare sustainment in a building, and that is just the 
structure itself, it is about $0.30 a square foot. If you don't 
patch that leak in the roof and you now have to replace the 
roof that gets to about $30 a square foot. If you don't fix the 
roof in time and the structure decays and you have to replace 
it, that is $300 a square foot.
    So the lowest cost is to adequately sustain a building. But 
right now we are $3 billion backlog with 5,500 major work 
orders in sustaining Army installations.
    We do not have the funding to sustain installations because 
we are putting our funding into training and equipping and 
maintaining the force so that we can do the missions asked of 
us by this nation. It is a tough decision.
    We are not maintaining the installations the way I would 
like to. We are not sustaining the installations the way I 
think we should. But we are deploying our soldiers the way I 
think we should.
    Mr. O'Rourke. We are supposed to be down to a force of 
450,000 by 2017?
    Secretary Hammack. 2018; 490,000 by the end of this year 
and then by 2018 down to 450,000, which has risks associated 
with that.
    Mr. O'Rourke. What happens if we don't do anything, if we 
don't follow these recommendations, if we don't ultimately 
address the 18 percent of overcapacity that you have within the 
Army?
    And I guess what I am getting at is will there be a 
recommendation for a further drawdown so that the force that we 
do have is ready, albeit smaller, and at a level where we are 
sustaining the infrastructure? Is that potentially a choice 
that we are looking at down the road?
    Secretary Hammack. The risk right now, we are doing an 
analysis, a Supplemental Programmatic Environmental Assessment 
to see where we would take the cuts in manning to go down to a 
force of 450,000. Some bases we are evaluating cuts of 15,000 
personnel, both uniform and civilian.
    So if you have a base of 30,000 and we take a cut of 15,000 
in order to live within the resources we have, that means fully 
50 percent of the structures on that base could be 
underutilized or empty or decaying to a point where they are 
failing. So they have no use to the community and they have no 
use to the Army. And if we ever have to surge, we would have to 
rebuild and build new.
    Mr. O'Rourke. Thanks. That helps me to better understand 
this issue. And before I yield back to the chair I just want to 
thank you for your accessibility and responsiveness on issues 
that we have brought to your attention in the 2 years that I 
have been here. We really appreciate your support at Fort 
Bliss.
    With that, I yield back to the chair.
    Mr. Wittman. Thank you, Mr. O'Rourke.
    I just want to get a perspective question here. I think it 
is the right time. To Mr. Conger, can you tell me from the 2005 
BRAC when you expect to accrue positive savings from that BRAC?
    Mr. Conger. So we are accruing approximately $4 billion of 
savings a year. The investment that----
    Mr. Wittman. Net for the entire period of time. Tell me 
when you will recover what you spent for that BRAC.
    Mr. Conger. So based on the $35 billion of investment and 
$4 billion of recurring savings, it nets out in 2018. I will 
note, however----
    Mr. Wittman. 2005 to 2018 is--I am not a good 
mathematician, but 13 years.
    Mr. Conger. Yes. The implementation period does not have 
the spend evenly across. That doesn't--the savings was not $4 
billion a year from the beginning, but it was from the end. 
There was a factor in the middle of that. But the figure is 
2018 for the breakeven point.
    Mr. Wittman. In a proposed--if you were given permission to 
pursue a BRAC, tell me the savings that you would accrue within 
the Fiscal Year Defense Plan, better known as the FYDP, in 
other words, money that you can actually plan to spend.
    Mr. Conger. So we have done a projection. Obviously 
everything depends on the specific recommendations. But we have 
a projection that we are using for planning.
    And within that projection we expect to spend--and oh, by 
the way, we based it on the kind of inefficiency BRAC round 
that we anticipate that includes the ones we did in the 1990s 
and the efficiency recommendations from the 2005 round. That 
kind of pattern, spend plan.
    We expect to spend approximately $6 billion within the 
scope of that 6-year period. And we expect to recoup 
approximately $6 billion in savings within that 6-year period, 
and $2 billion a year from then on out. That is based on a 5 
percent infrastructure reduction.
    So I would also note that, to address the previous 
question, if we anticipate that we have 20 percent, whatever 
the--18 percent to 30 percent of excess, that is not--we are 
not proposing to eliminate all of the excess. This is the 
lowest military value property that we have that we would 
target.
    Mr. Wittman. So your net would at best be questionable 
within a period of time where you could actually save the 
dollars. And if you are going to use the same spend plan 
assumptions that you used in 2005, which underestimated costs, 
overestimated savings and took 13 years to accrue savings, it 
is questionable at best about the dollars that would be 
available within the FYDP.
    So the assertion that those dollars would be available for 
readiness I believe certainly leaves much for analysis to 
consider what would actually be able to be planned to be spent 
in readiness accounts.
    Mr. Conger. I think it is fair to say that we would not 
complete the implementation of a BRAC round within the scope of 
a FYDP because by definition it takes longer.
    Mr. Wittman. Yes. And there is a lot of money that has to 
be spent up front in order to get a BRAC going----
    Mr. Conger. You spend money to save money. There is no 
question about that.
    Mr. Wittman. Yes. But asserting, like Ms. Hammack did, that 
somehow that tomorrow our men and women in uniform are going to 
get that training because we are going to start to close bases 
I think is a bridge too far.
    With that, we will go now to Mr. Gibson.
    Mr. Gibson. Well, thanks, Mr. Chairman. And appreciate the 
panelists being here.
    After 13 plus years of war we are now looking to reset the 
force, restore some full-spectrum capabilities, enhance our 
ability to strategically maneuver. And so my question is going 
to be about the Global Response Force.
    My last year, which was in 2010, I culminated as the 2nd 
Brigade commander of the 82nd. We were the ground component for 
the Global Response Force. A lot to be proud of there in many 
ways, but underwhelmed by our ability as a country to sort of 
pull together and support strategic maneuver from an 
installation platform perspective.
    So, Mr. Conger, I am interested to know you know--and to 
illustrate you know we have Pope--we had Fort Bragg and then we 
had Pope Air Force Base, which we had merged, which I think was 
a move--emotional to be sure, but a move in the right 
direction. But C-17s are hours away, and even the C-130s there 
we now have moved away.
    So from the DOD's perspective what is being done to 
complement the reset and to look from an installation 
standpoint that would support strategic maneuver? That can be 
the Army-Air Force integration, which I think is particularly 
needing focus. But it can also be from a Navy and Marine Corps 
perspective too from East Coast and West Coast.
    I am interested in any of that. And then the other 
panelists can jump in too.
    Mr. Conger. So, my instinct is to let the other panelists 
jump in first. I don't have a specific answer to your question. 
I would have to take it----
    Mr. Gibson. Well, you know----
    Mr. Conger [continuing]. For the record.
    [The information referred to can be found in the Appendix 
on page 119.]
    Mr. Gibson [continuing]. Candidly, with due respect, I mean 
that is really reinforcing my point is that I think we have 
really lacked a national perspective on this.
    It is certainly not in your inbox, per se, at this moment. 
But I mean from--take it back that you know as a guy who was 
the brigade commander for the Army's element that was the 
Global Response Force, I was looking for more joint 
perspective, more national support.
    For example, unexpectedly, and I think the President made 
the right call. He deployed us to Haiti in the immediate 
aftermath of the devastating earthquake that occurred there in 
January of 2010.
    And my paratroopers, I mean we 3 days into this deployment 
we had 200 paratroopers on the ground because we didn't have 
the platforms. The platforms were being directed toward 
Afghanistan.
    We had significant challenges in cycling. And this was an 
important mission the President had directed. And so you know 
from an installation standpoint, you know I think that 
ultimately we have got to do better as far as crafting the 
force so we can be a strategic deployment platform.
    So I do think that that is going to require more DOD 
involvement. I think there has got to be some modeling and 
simulation that comes and the Joint Staff is involved in that.
    But since it appears that you would like to go out to 
your--to the services here, I would be interested in if any of 
them have anything to say as far as strategic maneuverability 
or deployability, what initiatives you may have afoot.
    Secretary Ballentine. I would also take that one for the 
record. It is a little bit outside of the purview of my 
portfolio. But we will get back to you with some more details.
    [The information referred to can be found in the Appendix 
on page 119.]
    Secretary Hammack. We do want to ensure that our 
installations are strategic deployment platforms. And that does 
require an investment.
    You are absolutely right. Right now there is a focus on the 
Middle East from much of the Army's perspective. And the 
concern that the chief has is, are we able to have multiple 
deployments at the same time.
    We are challenged right now with the areas that we are 
deployed in around the world. And will we be able to respond to 
something on a moment's notice?
    We are concerned right now that the readiness levels within 
the Army are some of the lowest they have ever been. And that 
is because we do not have the money to invest in it.
    We are at about 33 percent readiness if I remember the 
numbers right. We don't agree that that is where we should be. 
But we have not been resourced.
    So we are challenged as we are reducing our installation 
funding as low as we possibly can so that we can put money in 
training to try and increase the readiness, so that we can put 
money in our equipping so that we can equip our soldiers.
    But the challenge right now is with 50 percent of the Army 
budget in manning, and the increases in pay and benefits every 
year, it is getting bigger and bigger every year and forcing 
the Army to take risk in some of these other areas. It is not 
an equation that is in balance right now.
    Mr. Gibson. Ma'am, thank you very much.
    Chairman this is--I know you know I have been on this point 
for some time, but----
    Mr. Wittman. Yes.
    Mr. Gibson [continuing]. You know as we are looking to 
really restore deterrence, which is very important to us peace 
through strength, we have got work to do to restore this 
capability, the Global Response Force, we have been working on 
it for a number of years. But part of it is including 
installations.
    Mr. Wittman. It is.
    Mr. Gibson. So thank you for the opportunity.
    Mr. Wittman. Mr. Gibson, thank you. I think that is a great 
point, making sure there is strategic alignment. Any time that 
you are looking at the idea of installation capacity you want 
to make sure that as you are looking at that, alignment takes a 
front stage when it comes to making sure we are making the 
right decisions.
    And with that, we will go to Mrs. Davis.
    Mrs. Davis. Thank you, Mr. Chairman.
    I think the hearing today obviously is really a good point 
for why there have been BRACs in the past. And there is just no 
question that Members of Congress, and for that matter I think 
a lot of the personnel on our installations also weigh in at 
these times. And it is sometimes very difficult to see where 
the benefit will be moving forward.
    But I wonder. I really need to press you to go a little bit 
further with this because I think that you know this is the 
Readiness Committee, and so it seems logical that one would be 
able to capture the resources that are needed out of our 
infrastructure to move in a different direction. And I think 
you have spoken to that.
    But it is not convincing, I think, to a lot of the members 
because the benefits do not accrue for some time with base 
closures. So how do you make the argument then, how do you move 
forward with why it is essential to do this at this time?
    You have talked about money that is not being spent if we 
don't have to sustain some of the installations. Clearly the 
room that we need is not necessarily where it is available. And 
so that is--there is just no way of aligning some of those 
things across the country.
    I am just wondering, how are you going to move forward with 
these arguments? Because I see a real benefit in doing that, 
from my community I have seen it. But on the other hand I know 
how possessive people are on a number of our facilities as well 
for giving up an inch of land.
    Secretary Hammack. Congress asked us to take a look.
    Secretary McGinn. If I might----
    Secretary Hammack. I will give it to you in just a minute.
    Congress asked us to take a look at our European 
infrastructure and to get that in balance. And that is 
something that we have done. And we have demonstrated that we 
have the analytical capability and we have the intellectual 
capability to balance our installations, to consolidate into 
locations that enable us to fight the fight for the next 50 
years.
    Some of the things that we are closing and consolidating 
out of in Germany are just the same issues that we have here: 
remnants and leftovers from World War II that we are closing 
out that are inefficient to operate. We need to do that same 
kind of analysis.
    The fact that it has less than a 3-year return on an 
investment for the Army is the same kind of analysis that we 
need to do here, and present to a commission, to give you 
something to take a look at to see where we can achieve those 
savings.
    We believe there are savings to be achieved through 
consolidating onto our most efficient platforms that give us 
the highest military value so that we are poised for the next 
50 years. That is what we are asking for.
    And Mr. McGinn.
    Secretary McGinn. We think in terms of near-term, mid-term, 
long-term investments and risks, risk assessments. And as Mr. 
Conger, in answer to your question, Mr. Chairman, pointed out, 
the return on investment of a BRAC round is not any time soon.
    But I would just like to make the point that when you want 
to close that resources and requirements gap, and reduce risk 
in the form of better readiness, the best way to do it is to 
put more money in. And that is why we are consistent in--and I 
know that the committee supports this as well--in our support 
for the President's budget.
    Or even more to get away from the bad things that happen as 
a result of sequestration. The things that are manifesting 
themselves since it first went into effect in fiscal year 2013. 
And we are still digging our way out of the hole on the shore 
readiness as well as in the platforms.
    Mr. Conger. Let me just sort of close out on this [point]. 
From the past five BRAC rounds we are saving $12 billion to $13 
billion a year right now, avoiding the costs. If we had not 
done them before and said well those savings are far out, we 
would have a much deeper hole to dig out of today.
    This is good government. It is the thinking about the 
future. And it is not necessarily about today's immediate 
problem because as we have pointed out, this is a medium-term 
savings we are looking at. We think it pays for itself within 
the implementation period, but even so it is not going to solve 
the $35 billion problem we have today.
    The way we end up doing that is by making pennywise and 
pound-foolish decisions like underfunding, taking risks in 
sustainment or smaller MILCON requests. That is the way we have 
had to deal with it because we have had an immediate problem to 
deal with.
    Facilities degrade slower than readiness does. And we have 
acknowledged that. And yes, it is the smart thing to do to take 
risk in facilities before you take risk in readiness.
    Mrs. Davis. Thank you.
    Secretary Ballentine. Can I weigh in on this briefly from 
the Air Force's perspective as well?
    If you look at the 2005 BRAC, that cost the Air Force about 
$3.7 billion and we are already saving $1 billion a year. I 
haven't been in the Air Force very long, as I told you all from 
the very beginning. But I come from the business community, and 
that is a darn good return on investment.
    EIC is costing the Air Force $1 billion and we are going to 
be saving $315 million a year. That is a good return on 
investment.
    Our readiness challenges are not going to be solved 
overnight, I am afraid. So we need to get after this 
infrastructure as soon as possible so that we can start piling 
that money back in.
    And I think it is an important question to ask; are we 
looking at today's Air Force that is stretched too thin when we 
are looking at a 30 percent excess infrastructure? And will we 
come back 5 years from now if the force structure is closer to 
where we need it to be, and say oh darn, we closed some things 
we shouldn't have closed?
    And I will tell you that we will, in a BRAC analysis, do a 
very careful, thoughtful analysis to ensure that we are making 
sure we have got the right equipment in the right places for 
the right force structure.
    We have got to preserve some surge. We have got to preserve 
some plus up. And that would all be part of the analysis.
    Mrs. Davis. Thank you.
    Mr. Wittman. Thank you, Mrs. Davis.
    We now go to Mr. Scott.
    Mr. Scott. Thank you, Mr. Chairman. And I would like to 
follow up, if I could, on one of the previous questions just 
for the statement.
    You know, your budget request is for $251 million for BRAC 
and then an additional $2 billion in increased spending on 
military construction. And I think from my standpoint as 
somebody who represents a lot of the men and women who are 
going overseas and fighting, I would rather see that money 
spent in readiness right now, making sure that the men and 
women that are being deployed have the training and the 
equipment that they need, than seeing it built in facilities 
that will not come online for the next several years to come.
    And so when we talk about short-term versus long-term needs 
I think the priority is making sure those men and women are 
trained prior to leaving. And that is one of the things that we 
have to balance.
    I understand the request for a BRAC is going to continue to 
come. I understand that at some point there will be a BRAC. And 
there is a tremendous divide I think, an extreme lack of trust 
between Congress and the administration. And I would suggest to 
you from my standpoint that I think the administration has well 
earned that lack of trust from the way I see it.
    I would like to ask a specific question about the Air 
Force, Ms. Ballentine. Last year the Air Force said that they 
had a 24 percent excess capacity. This year the testimony is 
that it is a 30 percent excess capacity. Did the process change 
that the Air Force used to determine that? And if not, what 
accounts for the additional 6 percent?
    Secretary Ballentine. Thanks for the question. Same 
process, and the 24 percent number that the Air Force testified 
to last year was from the 2004 analysis conducted for the 2005 
BRAC round. We updated using the same methodology and in fact 
many of the same input looking at updated force structure.
    Since 2004 our overall force structure has come down about 
10 percent. That is about 10 percent in both personnel and in 
planned aircraft. So when we reran the analysis with updated 
numbers, that is where we get to the roughly 30 percent excess 
infrastructure capacity.
    Mr. Scott. But to--just to make sure I understand you 
correctly, you used the 2004-2005 as the foundation for your 
analysis.
    Secretary Ballentine. We used the same process that was 
congressionally and GAO [Government Accountability Office] 
approved at that time. And the same process as 1998.
    Mr. Scott. What were the major facility categories that 
contained the excesses?
    Secretary Ballentine. So we looked at nine categories. And 
I can certainly meet with you separately or provide for the 
record much more detail on precisely what we looked at. But we 
looked at nine specific categories ranging from parking aprons 
to depot labor, space operations and a number of others within 
that, and subcategories within those.
    [The information referred to can be found in the Appendix 
on page 119.]
    Mr. Scott. I would very much appreciate it if we could 
have--if we could schedule that meeting to look at that--those 
individual issues.
    Secretary Ballentine [continuing]. Happy to do that----
    Mr. Scott. And certainly hope if you are visiting Robins 
Air Force Base or Moody Air Force Base that you will let me 
know, that both of those are in my district.
    Secretary Ballentine. Would love to do that as well, sir.
    Mr. Scott. And I guess the other question I have, Mr. 
Conger, would be for--you know as we talk about BRACs and the 
numbers that the Department continues to give us, it seems the 
Department already knows and has some ideas of where they want 
to make some of these cuts.
    And I guess my question is you ask us to keep trusting you 
with a BRAC. And my comments earlier were certainly not geared 
towards you. You ask us to keep trusting you with a BRAC 
though. And I am asking you that you trust us with providing 
that list of where you expect to make those cuts, either by 
category or by base.
    Mr. Conger. So I guarantee you that I do not have some sort 
of a secret list. The figures that we have provided are all 
parametrically based. We try to do that very----
    Mr. Scott. Well, let me--then--and I apologize for 
interrupting. You know I get short on time here. Is it too much 
housing? Is it too much industrial infrastructure, too much 
headquarter space, too many missions?
    Surely by category if you can tell us that one year it is 
24 percent and one year it is 30 percent in one of the 
branches, surely that you can tell us the same thing for the 
Army and the Navy. And you can tell us by category where that 
excess capacity is.
    Mr. Conger. We can certainly give you a copy of the 2004 
study and the categories are there. And it will show you where 
the excess was at that point in time. We haven't done a 
comprehensive e-service across the board, a redo of that 
analysis today.
    Mr. Scott. Then how can you be so confident it saves money?
    Mr. Conger. So because the--if you look at the excess that 
we had then, what small amount we closed in 2005, the reduction 
in force structure amplifying that excess, we are convinced 
that there is excess to get after.
    The BRAC study will identify the low military value 
locations that we are--we would look to consolidate and close. 
And we projected based on a straightforward percentage 
reduction in infrastructure what those costs and savings would 
be.
    Mr. Scott. As somebody who majored in risk management I can 
tell you, you have got a lot of multipliers in there.
    Mr. Conger. Yes.
    Mr. Wittman. Thank you, Mr. Scott.
    Ms. Gabbard.
    Ms. Gabbard. Thank you, Mr. Chairman.
    My question is for Mr. McGinn. With regard to the expected 
growth in the Navy force structure and the continued shift 
towards the Pacific, I am wondering how the Navy is 
reevaluating its infrastructure capacity and requirements.
    And specifically how do the infrastructure requests in this 
fiscal year 2016 support this rebalance towards the Asia-
Pacific? And how this investment is working to facilitate 
continuing to move the Marines from Okinawa?
    Secretary McGinn. As you probably know, that is a long-term 
or I would say midterm project. We will see the first Marines 
moving actually into Guam around 2020-2021. And it will take 
several years to complete it.
    We are starting already in terms of spending MILCON 
dollars. In fact, the question that Ms. Bordallo asked earlier 
about spending money to prepare live-fire training ranges in 
Guam is an example of that where we are 5 years in advance in 
order to make sure they are ready when those Marines come 
because they are going to be a rapidly deployable force.
    And we are also looking across the board at support 
structures like housing, for example, for Marines and their 
family working with the United States Air Force at Andersen Air 
Force Base to make sure that we are going to have Marines and 
Air Force personnel and families using that area instead of 
doing it separately.
    So I guess the short answer is simply we are very carefully 
going through what the requirements to maintain a ready 
deployable Marine force with live fire, with air combat 
element, ground combat element, and special forces moving back 
from Okinawa to Guam and to Hawaii as well.
    Australia is another area. The Chief of Naval Operations 
was just down there. But we are looking at this very carefully. 
And also not just counting the troops, but what is it in terms 
of infrastructure and the projects that will improve or create 
that infrastructure that will make them truly ready?
    Ms. Gabbard. Thank you.
    And Ms. Hammack, you know the number of troop reductions 
that we are projecting now and that we will continue to see 
should sequester continue obviously is of deep concern to many 
of us. In Hawaii there have been proposed very deep cuts both 
at Fort Shafter and at Schofield Barracks.
    And I am wondering if you can speak to really what are the 
real-life impacts on this Asia-Pacific focus on programs like 
General Brooks' Pacific Pathways of reaching out and 
proactively engaging many partners in the region how this cut 
would affect that mission.
    Secretary Hammack. When we are taking a look at how we are 
downsizing we are taking into account the many missions that 
the military has. General Odierno in a hearing end of January 
made a comment that sequestration is impacting Pacific 
Pathways. And we will not be able to do as much as we think we 
should do, or as General Brooks thinks we should do there.
    When we are looking at force structure reductions we are 
having to take a look at every location that has a BCT [brigade 
combat team] on it to determine how and how much we can take 
force structure down.
    Focus on Pacific is important. We have a lot of forces 
stationed in Korea, South Korea right now in support of that. 
It is one of those things that we have to evaluate and we have 
to balance. They are very tough decisions that we are making 
right now.
    In the listening sessions that we have had we have heard a 
lot from the communities and that comes into play. Military 
value does come into play. Op plans come into play.
    We are taking a look at everything and trying to put 
together a tough decision to reduce the force to levels that we 
don't think is appropriate, whether it is 450,000 or even 
deeper to 420,000 where we would be if full sequestration stays 
the way it is right now. So as I said, there are tough 
decisions that are going to affect almost every State because 
it is going to affect Guard and Reserve as well.
    Ms. Gabbard. Thank you. I think it is important that we 
share this understanding and these impacts not only on the 
local economies or the districts or the States that are 
affected by these sequester cuts but really how it affects the 
mission, how it affects our readiness, and how in places like 
the Asia-Pacific and particularly in the Korean peninsula where 
we continue to see the saber-rattling coming from North Korea.
    These are not theoretical things. These are things that 
have a very real impact on real people and the safety and 
security of the American people. Thank you.
    Mr. Wittman. Thank you, Ms. Gabbard.
    Dr. Wenstrup.
    Dr. Wenstrup. Thank you, Mr. Chairman. I just have a 
relatively quick question.
    Ms. Hammack, you were mentioning before about some of the 
places where redeveloped real estate, movie theater, this and 
that. Did we sell the real estate to private investors? Or do 
we own it in the hopes of turning a profit? How does that work?
    Secretary Hammack. One of the rules that Congress put in 
play under BRAC is the ability for special transfer authority 
and working with the local reuse authority. So the community 
sets up a local reuse authority that has a say in how that 
property is developed.
    Some of the other authorities we have to close bases, and 
we do have other authorities to close bases. We essentially 
close the base and give the real estate to GSA [General 
Services Administration] to sell to the highest bidder.
    The community doesn't have a say in redevelopment. The 
redevelopment comes along with grants, structured payment 
plans. The land is transferred usually at or below market cost, 
in many cases below market cost.
    There is some value that comes back to the Army or the 
Department of Defense. And quite often that value received is 
used for environmental cleanup. So that is what helps fund our 
environmental cleanup on bases. Some require more than others.
    Dr. Wenstrup. So there are several components to this 
before an action is taken and several ways that you can go 
about it. Are there some areas that we are leasing? Or are we 
basically turning these areas over just to kind of get out from 
under?
    Secretary Hammack. Many cases it is we are trying to find a 
buyer for it so that we can entirely get out of any caretaker 
or real estate responsibility. But meanwhile, to your point, 
the Army does have leases around. And we are working to move 
things back on bases and to some of the empty real estate.
    But even so, we have more capacity than we have the need 
for right now. So BRAC is a way for us to do that kind of 
rebalance, consolidations, and evaluate where we need to be for 
the future.
    Dr. Wenstrup. I think hearing some more of these 
situations, success stories, potential failures as we go 
forward it is always good to hear about how we are managing 
that situation. So thank you. I yield back.
    Mr. Wittman. Thank you, Dr. Wenstrup.
    Mr. Conger, I want to pursue a line of questioning that we 
had talked about earlier, and that is the context in which the 
concept of BRAC is proposed. Today we find ourselves in a 
threat scenario that is probably more complex than it has been 
at any time in our history, one that changes almost on a daily 
basis.
    We are also facing budgeting issues through sequester. We 
are also looking at where our end strength ultimately ends up 
being. We also look at what is the national security strategy, 
what should it be?
    Should it be to fight and win a war on one front and hold 
serve elsewhere, to fight and win a war just on one front, to 
fight and win on two fronts? I think that is part of the 
discussion that has to take place. And in that realm of 
uncertainty now comes the proposal to resize the capacity 
within the military.
    And one of the assumptions I think you have to have going 
forward in what the right capacity is, is some certainty about 
what the overall strategy for the Nation is, what the security 
risks are, the issue of sequester and where are we with 
certainty with the budgeting process, which I would argue we 
are not anywhere close yet.
    Hopefully we get there. And where we are with end strength. 
All of those in my mind have a very particular impact on the 
assumptions that you would put into doing a BRAC.
    Give me your perspective on how we go about doing a BRAC, 
rightsizing capacity in the face of all that uncertainty. And 
show me that when we end up there, if we were to go down that 
path, that we end up in the right place.
    Mr. Conger. Sure. I think that the best way for me to 
answer that question is to talk a little bit about what we did 
in Europe. And then I will bring it back to the specifics at 
hand.
    When we did the European Infrastructure Consolidation 
effort, which was a very BRAC-like process, we looked at excess 
capacity that we identified. We looked at the military value of 
the various sites and installations in Europe. And then we 
analyzed a variety of proposed scenarios, very much like the 
way a BRAC would work.
    When we did that we already incorporated the ability to 
have excess for contingencies and that was made part of the 
requirement. That was not excess per se. We incorporated that 
into the analysis. And we made a conscious decision to only 
look at and only accept recommendations that did not reduce our 
operational capacity.
    So in other words, how can we do the same thing for less 
money? What we are looking for in the context of a BRAC round 
is how do we do the same thing for less money?
    If--I understand the strategic uncertainty of what is our 
ultimate force level going to be. We rely on the Joint Staff to 
provide that input, the installations folks don't make it up.
    Historically they provided a 20-year force structure plan 
that has been required. There is--but as you pointed out there 
is uncertainty.
    In the sequestration-BCA environment is the Army going to 
be at 450,000 or 420,000? What procurement programs are or 
aren't going to go forward? Are we going to have A-10s or not 
A-10s?
    These are all things that factor into the calculus, and I 
understand that. But nonetheless, when you look at the BRAC 
analysis, it is based on retaining those places that have the 
highest military value, not those places that are not empty.
    And so the idea would be well, what happens if you reduce 
force structure to a particular location, but that base has the 
best training ranges or that base has the best maneuver acres, 
et cetera, et cetera.
    You don't close that base. You fill that base. And those 
are the dynamics that have to be contemplated within a BRAC. 
You are only looking at divesting those installations that are 
of the lowest military value.
    Mr. Wittman. As we look at this in context, obviously we 
are coming out of conflicts, Operation Iraqi Freedom, Operation 
Enduring Freedom; coming into a realm of a more dangerous 
world; coming into a time of reset. If there is one thing we 
have seen historically about reset is we always get it wrong.
    We have a hard time determining what the future may hold. 
But in that realm of uncertainty, do you believe that there 
should be a logical process to say let's cross off a few of 
these other uncertainties on the list first before we get to 
the point of doing a BRAC?
    In other words, shouldn't there be a little more certainty 
about what truly is the strategy? What are we going to do to 
address the sequester in the long term? Where are we going to 
end up with end strength? What is going to happen with the 
world around us as far as the threat scenarios?
    Wouldn't it be logical in your mind to say let's determine 
a little bit more certainty in those areas before we go about 
setting capacity that if we don't get that right we can't dial 
it up like a radio dial and say whoops, sorry, we made a 
mistake, we will just dial it back up; because it is hard to 
dial back up that capacity once it is lost.
    Mr. Conger. I think it is. It all depends on how much you 
expect to cut. If I identified a parametric excess on the order 
of 20 percent, am I going to cut 20 percent of my 
infrastructure? No.
    During the BRAC 2005 round we had identified parametrically 
an excess of approximately 24 percent. What we ended up cutting 
was 3.4 percent of our point replacement value. And I know it 
is apples and oranges. It is two different metrics. But it is 
what we could measure.
    The idea is we are not going to pursue recommendations in 
the name of savings that accept so much risk that that would be 
an issue. That is where we are coming from. We are looking for 
savings.
    We found it in the European analysis fairly 
straightforwardly. We were able to identify many 
recommendations without accepting what we deemed to be 
operational risk. And we were still able to retain significant 
enough excess to be able to deal with contingency operations.
    I think that where we are going with a BRAC isn't to give 
us BRAC authority so we can close all of our excess, because 
that would be foolish, right. What we are looking to do is 
having the authority to find those business cases and those 
scenarios which make the most sense that enable us to fully 
utilize our installations of highest military value.
    Because we can't refill them right now because we are 
prevented from closing the places where we have lower military 
value and filling those up. We have constraints on what we can 
do.
    I understand Congress' concern about the risk that we would 
accept. And I welcome ideas about how to constrain the 
authorities that Congress would provide so that you feel more 
comfortable with the authority you are giving.
    Mr. Wittman. If Congress were to consider the idea of 
directing the service branches to do an analysis based on a 
certain set of conditions or reality, would that be something 
that you could bring back to Congress within the year to give 
more context and more definition to what a BRAC might entail, 
including all these uncertainties, including what the end means 
are for a BRAC and what the ends might be?
    In other words, is it to save money? And if it is, how much 
is saved in the FYDP? Obviously not identifying bases, but 
looking across those general categories.
    Mr. Conger. So I think that it is important to recognize 
that when you--we could do a parametric capacity analysis like 
the----
    Mr. Wittman. I just want to interrupt you. If you will, put 
in context, tell us what a parametric analysis is.
    Mr. Conger. So if you are looking at excess capacity, you 
are looking at aircraft per apron space or brigade combat teams 
per training acre aggregated across the entire enterprise.
    You are not looking at, at Camp Swampy do I have--how much 
excess do I have in that particular location? You are adding it 
all up and developing a percentage based on what might have 
been the loading at a different period of time, how much have 
we vacated.
    That is the kind of analysis we do in order to avoid any 
sort of bias in the analysis that would point to a particular 
installation. We are very careful about that. We believe that 
any time you do a comprehensive BRAC analysis based on 
certified data where all bases are treated equally, that can't 
be influenced by a proposed list.
    I already know I want to do this or I already know I want 
to do that. We don't want to pollute the process that we see as 
transparent, analytical, and apolitical by influencing it with 
sort of a here is where we are going type of thing.
    Mr. Wittman. I am going to end with this and then I want to 
go to Ms. Bordallo.
    Would you believe it to be helpful to be able to answer 
some of the questions that I think you hear from the 
subcommittee members today, and also other questions that are 
out there, to be able to pursue such an analysis where you can 
look at those parameters?
    Do that analysis, put some scenarios in there where members 
can at least understand how you addressed the uncertainties 
that are around BRAC so they have a better sense, as you heard 
from Mr. Scott, a better level of trust in that those issues 
that they feel are important with this are addressed in that. 
And that they have some level of surety that if Congress were 
to go down the road of a BRAC that there is some context in 
which they have made the decision.
    Rather than what happened in 2005, which was let's do a 
BRAC and then do the analysis. It was kind of the cart coming 
before the horse.
    Mr. Conger. Right. I think that it is fair to request an 
excess capacity analysis across the government. I think the 
Army and the Air Force have already done ones. But I think we 
can do one that is comprehensive. I mean, we have been 
contemplating that ever since the language you inserted into 
that House bill last year.
    The specifics of how we would do that I think are fair to 
discuss. But I think that we think that it is important to do. 
We wouldn't be able to do base-by-base types of things in this 
context without a formal BRAC process.
    Mr. Wittman. Well, we--and we wouldn't expect that because 
I think that is what the BRAC is intended for is to do a base-
by-base comparison. But to look overall, as you said, within 
the parameters and then address those different uncertainties 
that are out there.
    Say this is how we factor in to provide for if this 
uncertainty were to happen within this range. The worst case 
scenario to the best case scenario here is how we have factored 
in what this would be. And here is how a BRAC could and would 
address that. I think those issues are very important in 
people's minds.
    Mr. Conger. Let me sort of plant this seed as well. What 
that parametric analysis does, what the excess analyses that 
the Army and the Air Force have done is that they point to 
excess where it creates the trade space in which you can make 
some specific decisions.
    In EIC we did the same sort of thing. We said ah, we see 
there is force structure reducing in Europe. We know that there 
is trade space here. Let's go in and look at the specifics. And 
the specifics didn't necessarily have to do with the specific 
places where there was excess created.
    But we knew that there was the room to move around in that 
space. The specific places where we might identify excess won't 
end up necessarily being where the recommendations are. But 
they provide the trade space, this swing space that might 
afford an opportunity.
    I will leave you with a thought. In EIC, I will use an Air 
Force example, we have enough fighters in Europe to basically 
completely fill two fighter bases. Well, we have three fighter 
bases in Europe. But those were among the highest military 
value installations that we have on the continent.
    So instead what we contemplated and what we ended up 
recommending was taking a facility that had a support function, 
Mildenhall, and taking the assets there and filling up the 
fighter bases so it had--so that Spangdahlem in particular had 
multi-mission.
    We were able to preserve bases we deemed to be the highest 
military value. And so what we have proposed wasn't necessarily 
where the excess was. Does that make sense?
    Secretary McGinn. Mr. Chairman, if I could just add?
    Mr. Wittman. Sure.
    Secretary McGinn. Especially in this committee or this 
subcommittee you hear the expression ``train like you fight.'' 
That is right at the essence of achieving readiness. And we 
all, across all of the services across the Department, work 
encroachment issues all the time, whether it is jet noise or 
operations at sea, ground combat maneuvering, et cetera.
    And I just wanted to make the comment that this is a key 
aspect of military value that Mr. Conger was talking about. And 
it isn't based on necessarily only a future BRAC issue or to 
not have one. It is happening right today, every installation. 
And preserving that ability to train like you fight directly 
contributes to our readiness.
    Mr. Wittman. Mr. McGinn, I think that is a great point. It 
is one of the questions that comes up too all the time with the 
BRAC. And that is if you get to a point of releasing facilities 
that again you may need in some capacity in the future, to be 
able to reconstitute that becomes impossible to go back to 
those existing bases because then encroachment occurs.
    So then it becomes very difficult to train like you fight. 
And then you have to go to different areas where the costs are 
increased either to obtain the land or to pursue operations 
there.
    And you heard Mr. Gibson bring up a very good point, and 
that is the strategic location, too, of those facilities, which 
also has to be part of an analysis. It is one of those areas 
that I think doesn't normally come up at the beginning of an 
analysis. But it has to be part of that so we understand what 
the secondary effects of that might be.
    With that I go to Ms. Bordallo.
    Ms. Bordallo. Thank you, Mr. Chairman. And I want to thank 
you. I think this has been very important and we have received 
a lot of information from this hearing.
    I am curious. Ms. Hammack and Mr. McGinn and Ms. 
Ballentine, if you could comment briefly, how are you 
leveraging privatization efforts, public-private partnerships 
or other innovative authorities to mitigate the risk in 
infrastructure investments and achieve financial savings? We 
will start with you, Mr. McGinn.
    Secretary McGinn. We use all of the tools that Congress has 
given us the authorizations: enhanced use leases, energy 
savings performance contracts, utility energy services 
contracts, power purchase agreements, to be able to get private 
sector investment in our installations, that do a couple of 
things.
    They give us better, cleaner power. They get us more 
reliable power to the extent that we get distributed 
generation. And it is really good for the economy of not just 
the local area but the Nation and seeing putting this capital 
to work.
    At the same time, we in the services get the immediate 
benefits from seeing these deals occur, these contracts occur 
over a very compressed period of time measured in months, not 
years. And we--as soon as those projects are completed, we are 
reaping the benefits in lower utility bills, in better, 
cleaner, cheaper energy and a more robust backbone for 
distributed generation.
    Ms. Bordallo. Very good.
    Ms. Hammack.
    Secretary Hammack. Thank you, Representative Bordallo. You 
know we have been leveraging partners for quite a while. 
Housing is one of our most successful ones where we have 
privatized housing to deliver better housing for our service 
members.
    Most of our bases have lodging for visitors and for 
soldiers who are PCSing [permanent change of station] or for 
training missions. And we have privatized lodging, which has 
increased the quality of the lodging that we provide service 
members.
    We have also worked to privatize utilities, whether it is 
electricity, natural gas, or wastewater. And the private sector 
comes in and invests in the infrastructure, which actually then 
makes it much more efficient and then reduces our operating 
costs. So we found that utilities privatization helps save us 
cost in the long run.
    And now we are looking at a fourth category, which is how 
do we privatize some of our base operations. And quite often we 
call it the Monterey model because Presidio of Monterey, 
located in Monterey, California, is entirely surrounded by the 
city of Monterey.
    And what we have done is privatize all of our base 
operations facilities so the city of Monterey runs the Presidio 
of Monterey. And it has resulted in reduced operating costs.
    We look to see where we can apply some or parts of the 
Monterey model through legislation that Congress authorized 
just last year. They clarified it.
    And some of our installations, many of our installations 
are located in remote locations, not in a location where a city 
or a county is available to provide services. But we are 
investigating where there are opportunities to leverage core 
competencies that might be outside the base so that we are not 
duplicating services on the base.
    Ms. Bordallo. Thank you. And Ms. Ballentine.
    Secretary Ballentine. So the Air Force, like our sister 
services, looks at a number of other opportunities and tools in 
the tool kit.
    As I said at the beginning, when you have unaffordable 
installations, it is really simple. There are only two ways you 
can get after it. You can spend more money on them or you can 
make them cost less. And one of the things that really excites 
me is beyond just MILCON and FSRM and BRAC we have a range of 
other tools in our tool kit.
    So of course privatization of housing has been very 
successful. We are also working down the path of privatizing 
utilities. But there are a range of other tools as well. And I 
will give you a couple of examples.
    Enhanced use leases [EULs] is an exciting area of 
opportunity. Most folks have heard about the wastewater 
treatment plant down at Nellis. And in return they built a 
state-of-the-art fitness center.
    We have got another really exciting enhanced use lease down 
at Eglin Air Force Base where the Holiday Inn has built a hotel 
and we have put our radar on top. Our radar tower was on the 
ground and less effective because the other hotels were 
building up next to it. So we needed to build the radar tower 
anyway.
    Not only did they put the radar on the top, they painted it 
like a beach ball. So this thing has become kind of a landmark. 
And it is really a neat story. And the Holiday Inn then pays us 
a percentage of their gross revenues every year. It is a great 
opportunity. So those are a couple of EULs.
    Power purchase agreements allow us to get cleaner energy on 
our bases, provide some energy resiliency. We just did our 
largest solar array in the Air Force to date, 6.4 megawatts at 
Davis-Monthan Air Force Base. That thing is providing 35 
percent of the base's power. At peak sun it is providing over 
100 percent of the base's power. And it is saving them a half 
million dollars a year.
    That is another tool that helps get at the fact that these 
bases cost too much money, and gets at the energy resiliency. 
And there are a number of other examples like that. So this is 
one of the areas that I am really excited about and keeps me 
optimistic.
    Ms. Bordallo. Well, thank you. We see these at home. We 
have a large Air Force base and Navy base, and I see these 
partnerships ongoing. And I think it brings the military and 
civilian community together in a big way. And I think that is 
important.
    I have one last question, Mr. Chairman. Okay.
    Ms. Ballentine, in recent years a large percentage of the 
Air Force's military construction budget has been focused on 
supporting combatant commander requirements such as the 
headquarters facility for U.S. Strategic Command and the U.S. 
Cyber Command and new mission beddowns such as the KC-46 and 
the F-35.
    Now, can you describe the impact these requirements have 
had on the Air Force's ability to focus on the recapitalization 
of infrastructure supporting current missions?
    Secretary Ballentine. Yes, ma'am. So General Welsh, our 
chief of staff, has said quite clearly that we have in the last 
several years been underfunding our existing mission 
infrastructure, things like nuclear infrastructure, space 
infrastructure, test and training ranges. And those bills are 
now due.
    This year's PB 2016 MILCON budget I think is really the--
strikes the right balance between three priorities. First, 
continuing to focus on COCOM commanders' needs. That is around 
21 percent of this year's MILCON budget.
    Second, focusing on the Secretary's three top priorities: 
nuclear, space, cyber. Those combined are about 17 percent. And 
much of that is what might fall in that category of existing 
mission recapitalization. We have got three very important 
nuclear recapitalization infrastructure projects in that 
bucket.
    And then the third pillar of the MILCON strategy is really 
balancing that existing mission infrastructure recap 
[recapitalization] with beddown of the new weapons systems. And 
those two are about 26 percent for existing mission 
recapitalization, things like firehouses and runways and the 
like, and 16 percent for F-35 and KC-46 beddown.
    Ms. Bordallo. Thank you very much.
    And, Mr. Chairman, thank you for giving me the second round 
of questions.
    Mr. Wittman. Absolutely, Ms. Bordallo. Thank you.
    I have one housekeeping item. I ask unanimous consent to 
include into the record all members' statements and extraneous 
material. Without objection, so ordered.
    Panelists, thank you so much today for joining us. And we 
appreciate the time you have spent with us. Obviously all of 
our members got to ask questions, all of I think significance 
as we look about how we address a variety of challenges, 
obviously one of them being installation capacity in the 
context of what happens with sequester, end strength, and 
national security strategy.
    So thank you all so much for providing that perspective to 
us today. And we will continue the dialogue as we head forward 
into the National Defense Authorization Act.
    Thank you so much. And with that, the subcommittee is 
adjourned.
    [Whereupon, at 5:13 p.m., the subcommittee was adjourned.]


      
=======================================================================

                            A P P E N D I X

                             March 3, 2015
      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             March 3, 2015

=======================================================================

      
      
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
      
=======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                             March 3, 2015

=======================================================================

      
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
      
=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                             March 3, 2015

=======================================================================

      
             RESPONSES TO QUESTIONS SUBMITTED BY MR. GIBSON

    Mr. Conger. The Department's global infrastructure network supports 
the mission requirements of a defined force structure. As such, the 
Department continuously evaluates its infrastructure as strategic 
objectives, force structure and mission sets evolve. The Department 
strives to ensure its infrastructure is aligned with force structure 
requirements, supporting both steady state activities and rapid force 
projection, while promoting efficiencies (such as joint use of 
facilities) to the greatest extent practicable. That is why it is so 
important for Congress to authorize a new BRAC round--it is only 
through BRAC that the Department can effectively accomplish that 
objective.   [See page 18.]
    Secretary Ballentine. The United States Air Force continues to 
successfully support strategic maneuver to include XVIII Airborne Corps 
Global Response Force (GRF) and others with assets not co-located with 
Sister Service forces. Per coordinated discussion with the United 
States Air Force and Air Mobility Command, divestment of the 440th 
Airlift Wing (Pope Army Air Field--AAF) will have negligible impacts to 
XVIII Airborne Corps' GRF Joint Forcible Entry (JFE) capacity and 
capability. Under the current installation landscape, DOD can deliver 
the GRF direct to an objective around the globe via USAF assets non-
collocated at Pope AAF. Given sufficient strategic warning, the GRF can 
be forward staged, and the JFE executed via an integrated package of C-
17s and C-130s. Additionally, 100 percent of current deployment 
requirements of the XVIII Airborne Corps are met through units external 
to Pope AAF.
    The USAF remains committed to supporting US Army airborne training 
requirements through the Joint Airborne/Air Transportability Training 
(JA/ATT) Management System (JMS) program. Using JMS, the US Army can 
schedule additional JA/ATTs to make up for the sorties currently flown 
by AFRC C-130Hs based at Pope AAF. The Air Force--via the JA/ATT 
construct--also supports 100 percent of the missions at Fort Benning, 
Fort Campbell, and many other Army, Marine Corps, and Special 
Operations Command units, whether or not they have co-located transport 
aircraft. In 2010, the 18th Air Force, XVIII Airborne Corps, and 82d 
Airborne Division senior leaders began to formalize what is now known 
as the quarterly JFE Readiness Symposium to allow Army and Air Force 
senior leaders to prioritize training objectives, to maximize training 
outcomes, and to resource joint exercises that enhance JFE readiness of 
both Army and Air Force units.   [See page 18.]
                                 ______
                                 
              RESPONSE TO QUESTION SUBMITTED BY MR. SCOTT
    Secretary Ballentine. The Air Force January 2015 strategic, 
headquarters-level CONUS capacity analysis considered nine broad 
categories comparing simple ratios relating capacity to force structure 
and determined the Air Force has approximately 30% excess 
infrastructure capacity. The categories include Reserves Parking Apron; 
ANG Parking Apron; Education & Training Parking Apron; Small Aircraft 
Parking Apron; Large Aircraft Parking Apron; Education & Training 
Classroom Space; Depot Labor; Space Operations; and Product Centers, 
Laboratories and Education & Training Facilities.   [See page 22.]


      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             March 3, 2015

=======================================================================

      
                   QUESTIONS SUBMITTED BY MR. WITTMAN

    Mr. Wittman. Under constrained resources, the Department is 
balancing risk among force structure, modernization, and readiness to 
meet defense strategic requirements. The infrastructure investment 
accounts have taken a large portion of the risk.
    a) Explain how the Department aligned infrastructure investments 
with the defense strategic requirements?
    b) If Congress adopted the President's Budget in fiscal year 2016, 
how would the infrastructure investments impact readiness? What are the 
risks to infrastructure and readiness already inherent at this 
investment level?
    c) If Congress fails to repeal sequestration, how would the 
corresponding decrease in infrastructure investment impact readiness? 
What are the risks to infrastructure and readiness that would be 
assumed under a budget constrained by sequestration?
    d) Do you have any examples of failed or failing infrastructure 
based on the risks taken under sequestration and the Bipartisan Budget 
agreement?
    Mr. Conger. a) The Department's infrastructure investment supports 
the defense strategy identified in the 2014 Quadrennial Defense Review. 
Our 2016 budget request prioritized infrastructure investments to 
ensure that our military has mission capable facilities as necessary to 
protect the homeland, to build security globally, and to project power 
and win decisively. Our budget request also prioritizes infrastructure 
investments to ensure the life, health and safety of our military and 
civilian workforce, while maintaining a high quality of life for our 
service members and their families.
    b) The President's FY 2016 budget requests $8.4 billion for the 
Military Construction (MilCon) and Family Housing Appropriation to 
invest in facilities that address critical mission requirements and 
life, health and safety concerns, to include the bed-down of forces 
returning from overseas bases, restoration and modernization of 
enduring facilities, and acquisition of new facilities where needed to 
ensure mission capability and readiness. This figure represents a 30% 
increase over the FY 2015 enacted level. This increase begins to 
reverse the high risk to readiness experienced since sequestration 
began. While the FY 2016 MilCon request ($6.7 billion) includes 
projects in support of the strategic shift to the Asia-Pacific, 
projects needed to support the realignment of forces, and projects that 
are crucial to ensure that we can deliver the quality of life necessary 
to attract and retain an all-volunteer force, it is still not at the 
level to allow DOD to address recapitalization needs that have been 
delayed due to sequestration.
    c) If the Department's FY 2016 budget request is reduced to the 
Budget Control Act levels, the infrastructure investment will likely be 
impacted similar to the FY 2015 funding levels. At these reduced 
funding levels, DOD could see the $1.8 billion increase in military 
construction, $2.5 billion increase in facility sustainment and $946 
million increase in restoration and modernization disappear, which 
could then have DOD Components continue addressing only facility life, 
safety and health issues. As we continue to stress the infrastructure 
associated with our readiness platforms, the risk to missions also 
increases and home and workplace quality of life suffrage continues to 
erode.
    d) A few examples of failing/failed infrastructure related to 
sequestration can be seen in the following:
    <bullet>  China Lake Airfield. Deferral of major asphalt overlays 
caused all 3 runways to deteriorate into a compromised state of 
readiness simultaneously. In early 2014, pieces of the crumbling runway 
caused damage to an F/A-18F.
    <bullet>  Patuxent River Airfield. A restoration & modernization 
project had to be phased due to limited availability of funds resulting 
in delayed restoration and increased operational risk. As a result of 
deteriorated conditions, the right door and the external flap of the 
engine exhaust nozzle on a BF-5 aircraft was damaged.
    <bullet>  Dam Neck Combat Systems Training Facility. Navy was 
unable to fund an restoration & modernization project to repair the 
roof and building envelope of a Fleet training building at Dam Neck 
Annex. As a result, radar training must be suspended during inclement 
weather so computer equipment can be turned off and covered with tarps 
to prevent damage.
    Mr. Wittman. In conjunction with the fiscal year 2016 budget 
request, the Department of Defense is submitting a legislative proposal 
seeking an additional base realignment and closure (BRAC) round.
    a) Has the Secretary of Defense completed an updated assessment on 
whether excess infrastructure exists in the Department?
    b) What empirical support can the Department provide to support a 
request for additional BRAC rounds?
    Mr. Conger. a. Army conducted a programmatic analysis of real 
property needed to support an end-strength and corresponding force 
structure of 490,000 active component Soldiers. For inside the United 
States, they report that their excess capacity ranges between 12 and 28 
percent, depending on facility category group, with an average of 
approximately 18 percent.
    Air Force has also completed a capacity analysis, comparing current 
infrastructure capacity to projected force structure and mission 
requirements. The results indicate the Air Force has approximately 30 
percent excess infrastructure capacity. This excess capacity results 
from decreases in Air Force personnel and force structure outpacing 
reductions in infrastructure. Since the last BRAC round in 2005, the 
Air Force has 50,000 fewer personnel and 500 fewer aircraft in its 
planned force structure.
    b. The opportunity for greater efficiencies is clear, based on 
three basic facts that have not changed over the last year:
    <bullet>  In 2004, DOD conducted a capacity assessment that 
indicated it had 24% aggregate excess capacity;
    <bullet>  In BRAC 2005, the Department reduced only 3.4% of its 
infrastructure, as measured in Plant Replacement Value--far short of 
the aggregate excess indicated in the 2004 study;
    <bullet>  Force structure reductions subsequent to that analysis--
particularly Army personnel (from 570,000 to 450,000 or lower), Marine 
Corps personnel (from 202,000 to 182,000 or lower) and Air Force force 
structure (reduced by 500 aircraft)--point to the presence of 
additional excess.
    We project that a new efficiency-focused BRAC round will save about 
$2 billion a year after implementation with costs and savings during 
the six-year implementation period being a wash at approximately $6 
billion. Our projection is based on the efficiency rounds of the 1990s.
    Mr. Wittman. According to the Department's report, implementing EIC 
actions will not reduce the operational force structure or military 
capabilities in Europe, only excess infrastructure.
    a) Please explain the process and factors the Department used to 
ensure military capabilities in Europe were not reduced?
    b) The Department has stated that a BRAC-like process was used to 
inform the EIC decision process. Can you describe any lessons learned 
from the EIC effort that should be considered as the Department manages 
its overseas infrastructure moving forward?
    Mr. Conger. a) A defined force structure plan provided by the Joint 
Staff served as a baseline for the EIC analysis. The process did not 
allow for any reductions in or changes to that force structure. 
Additionally, maintaining military value as a primary analytical factor 
helped ensure that no military capabilities were compromised.
    b) The EIC process showed that overseas capacity should be reviewed 
from a theater perspective to the greatest extent practicable, with a 
focus on joint use of infrastructure.
    It also demonstrated substantial savings are possible from 
realignment actions on scales much smaller than returning an entire 
installation.
    Mr. Wittman. The infrastructure investment accounts have taken a 
large portion of risk the last several years under constrained budgets.
    a) Within the President's Budget in fiscal year 2016, what level of 
risk has your Service taken in infrastructure?
    b) Do you have any examples of failed or failing infrastructure 
based on the risks taken under sequestration and the Bipartisan Budget 
agreement?
    c) Can you discuss how you are leveraging privatization efforts, 
public-private partnerships, or other innovative authorities to 
mitigate the risk in infrastructure investments and achieve financial 
savings while improving the quality of infrastructure or services?
    d) Due to sequestration, the Army announced force structure 
reductions in 2013 bringing the Active Duty end-strength down from 
562,000 to 490,000. The Army is currently assessing options to 
implement further reductions to its end-strength and has stated it may 
need to go to a force of 420,000 if sequestration-level funding returns 
in fiscal year 2016. If these force structure reductions are 
implemented, will the requirements for, or scope of, any of the 
military construction projects contained in the fiscal year 2016 budget 
request be impacted?
    e) The Army's military construction budget is primarily focused on 
recapitalization to support current missions. Can you discuss the 
process used by the Army to prioritize military construction projects 
funded in fiscal year 2016 versus those contained in the Future Year 
Defense Program (FYDP)?
    Secretary Hammack. a) The Army continues to take risk in this 
budget to maintain, restore, or modernize its facilities and 
infrastructure. While fiscal year 2016 limitations present challenges 
across all Army installations, further budget reductions would 
substantially increase risks to readiness and wellbeing. What the Army 
needs is consistent, predictable funding to apply to the life cycle 
management of its facilities and infrastructure. The FY 2016 budget for 
Facility Sustainment, Restoration and Modernization (FSRM) will fund 
those most critical projects that meet the criteria established by the 
Army Facility Investment Strategy in the project prioritization review 
process in FY 2016.
    b) All projects in the FY16 President's Budget request address 
failed or failing facilities or address critical capability shortfalls. 
Some examples include constructing a new pier to replace the failed 
Pier #2 at Military Ocean Terminal Concord, California; improving Army 
cyber capability with a command and control facility for the US Army 
Cyber Command Headquarters and the Joint Forces Headquarters--Cyber at 
Fort Gordon, Georgia; replacing the obsolete and failed Waste Water 
Treatment Plant at West Point, New York; replacing the failed and 
obsolete WWII-era structure at Corpus Christi Army Depot to modernize 
the Army's only organic, depot level facility for the repair, overhaul 
and maintenance of rotary wing aircraft and aircraft components; and 
replacing WWII-era facilities at Fort Indiantown Gap, Pennsylvania, 
providing a safe and efficient space to store, maintain, and fabricate 
training devices. All of these projects address pressing failed or 
failing infrastructure risks that are being addressed in the Army's 
FY16 President's Budget request.
    c) The Army is leveraging public-private partnerships such as the 
Residential Communities Initiative (RCI) privatized housing, the 
Privatization of Army Lodging (PAL), and utilities privatization (UP) 
programs. These programs have realized significant savings and cost 
avoidance for the Army since their inception. These programs have 
greatly mitigated the risk in infrastructure investments by leveraging 
private sector expertise and funding to improve the overall quality and 
long-term sustainability of infrastructure services.
    The Army is leveraging private industry investment to improve 
facilities and infrastructure through authorities for energy savings 
performance contracting, utilities privatization, and power purchase 
agreements. The Army has the most extensive energy savings performance 
contracting and utility energy services contracting program in the 
Federal Government with over $2.26 billion of third party investment 
leveraged to provide energy and water savings facility improvements. 
These efforts use private industry technical expertise to develop, 
construct, operate and maintain more efficient facility infrastructure. 
We have privatized over half of our installation utilities 
infrastructure through the utilities privatization that not only 
improves the condition and reliability of installation utilities 
services, but also has resulted in substantial savings in natural gas 
and water. Our Office of Energy Initiatives is also utilizing the power 
purchase authority to attain mandated renewable energy goals and 
provide energy security infrastructure to installations, partnering 
with private industry to develop commercial scale renewable energy 
systems on our installations.
    The Army is in the process of implementing its plan to use the 
public-public partnership authority first published in NDAA 2013 and 
updated in NDAA 2015. This updated authority broadens the ability to 
realize cost savings or cost avoidance, as well as gaining efficiencies 
in the conduct of installation support services through the use of 
intergovernmental support agreements (IGSAs). Internally, the Army will 
communicate with its commanders through official orders and Army Senior 
Leader correspondence, to spread the word that IGSAs may now use legal 
instruments other than FAR-based contracts. The Army will also ensure 
that commanders fully understand the process of submitting IGSA 
partnership concepts for approval.
    Externally, the Army will host a public-facing webpage to convey 
partnership information to the general public, as well as to the Army 
Commands. In addition, the Army will participate in public forums with 
the Association of Defense Communities, Association of United States 
Army, Society of American Military Engineers and others to engage with 
the communities and States that are interested in partnering with us.
    The Army will continue to assist commands with their Army-Community 
partnering meetings, identification of partnership opportunities, 
concept development and agreement consummation. These engagements 
provide valuable insight and lessons learned which help us to refine 
the partnership program and ensure it remains meaningful for all Army 
Commands.
    d) The MILCON projects requested in the FY16 Presidents' Budget 
request are neutral with respect to pending force structure decisions 
associated with end-strength reductions and will continue to be 
required regardless of the final force structure decisions made as 
informed by the Supplemental Programmatic Environmental Assessment
    e) The Army prioritization process for fiscal year 2016 projects is 
the same process used for all projects in the Future Year Defense 
Program.
    To facilitate an objective assessment of the MILCON programming 
process the MILCON Integrated Programming Team (IPT) was established. 
This body consists of representatives from across the Army Staff and 
the Reserve Components along with subject matter experts on critical 
project related issues. The MILCON IPT acts under a charter which 
grants it formal recognition as an official Intra-Army Committee by the 
Administrative Assistant to the Secretary of the Army. The factors used 
in the prioritization process are aligned with the Army's Facility 
Investment Strategy (FIS).
    On an annual basis the MILCON IPT develops an integrated, 
prioritized 1-N (order of merit) list for MILCON projects. This list 
includes the following appropriations: MCA, MCNG, MCAR and AFHC. The 
factors that are considered in the project's ranking are: Existing 
facility condition and functionality (capability of the facility to 
meet its mission) from the ISR (Installation Status Report); 
Demolition/disposal/facility reduction; Facility shortfall versus 
requirement from RPLANS (Real Property Planning and Analysis System); 
Army Focus Facilities--facility types identified for expeditious buyout 
of deficits; and Command priority
    For projects in the first two years of the FYDP, the MILCON IPT 
conducted a comprehensive risk analysis to ensure those projects will 
be executable in the near term.
    The MILCON IPT then met to deliberate on every project to ensure 
Congressional language, OSD, or Army leadership adjustments and 
priorities, and supplemental or clarifying information are considered. 
The MILCON IPT made appropriate adjustments to the prioritization of 
the project. Finally, the MILCON IPT program recommendation went 
through a vetting process consisting of a series of briefs culminating 
in program approval by the Under Secretary of the Army (USA) and Vice 
Chief of Staff of the Army (VCSA) level.
    Mr. Wittman. The Army has again proposed to defer investments in 
facilities sustainment, budgeting across the services at 80% of the 
model, on average, versus the recommended 90%.
    a) Why did the Army elect to take risk in the sustainment accounts 
versus more risk in restoration and modernization and recapitalization 
activities?
    b) Can you explain the long-term effect of a delay in funding the 
facility sustainment account?
    c) Can you quantify the current backlog of facility sustainment, 
restoration, and modernization requirements across the Army?
    Secretary Hammack. The Army continues to take risk in Facility 
Sustainment, Restoration and Modernization (FSRM). The Army's priority 
is to maintain Unit and Soldier readiness. With the budget caps under 
current law, the Army can only afford to fund sustainment at 80% 
(increase of 10% from FY15) of the Facility Sustainment Model. The 
Restoration and Modernization funding request represents 67% of our 
critical requirement.
    Long-term effects associated with deferring facility SRM varies 
based on a number of factors, including facility type, materials, 
geographical location, age, and use. Over time, deferred sustainment 
causes a more rapid decline in facility life-spans and increases R&M 
and MILCON requirements. Further reductions in SRM will negatively 
impact operational readiness, training, and Soldier well-being, by 
increasing facility maintenance backlogs, steepening facility 
degradation rates, and increasing facility component failures.
    The Army has a $3B sustainment maintenance backlog. This equates to 
an estimated 5520 major work orders. The Army has made significant 
strides in reducing the routine demand maintenance order backlog since 
FY13 when sequestration caused the deferral of over 100,000 routine 
demand maintenance orders per month.
    Mr. Wittman. The infrastructure investment accounts have taken a 
large portion of risk the last several years under constrained budgets.
    a) Within the President's Budget in fiscal year 2016, what level of 
risk has your Service taken in infrastructure?
    b) Do you have any examples of failed or failing infrastructure 
based on the risks taken under sequestration and the Bipartisan Budget 
Agreement?
    c) Can you discuss how you are leveraging privatization efforts, 
public-private partnerships, or other innovative authorities to 
mitigate the risk in infrastructure investments and achieve financial 
savings while improving the quality of infrastructure or services?
    Secretary Ballentine. a) We assess our infrastructure investment 
risk as moderate. In our previous budget requests, the Air Force 
attempted to strike the balance between a ready force for today with a 
modern force for tomorrow under constrained budget levels. To help 
achieve that balance, the Air Force elected to accept risk in 
installation support, military construction (MILCON) and facilities 
sustainment. These reductions were critical to maintain adequate 
resourcing across the Future Years Defense Program (FYDP) for some of 
the Air Force's unique capabilities. However, in the FY 2016 request, 
the Air Force begins to reduce the impacts of that risk by increasing 
funding for installations in all three of the areas noted above.
    b) The Cape Canaveral Range Communications Facility that we are 
seeking MILCON funding for in the FY 2016 request is a perfect example 
of the risks in infrastructure the Air Force was required to take under 
sequestration and the Bipartisan Budget Agreement. The original 1950's 
vintage facility has had long standing leak problems that were made 
obvious during Tropical Storm Fay in 2008 when the building experienced 
severe flooding. This project has been the Air Force's number one 
current mission space infrastructure MILCON requirement since 2013 but 
has been unable to be funded under the constrained budget levels 
previously mentioned.
    c) The Air Force is committed to making every dollar count. As 
such, the success of money and time-saving innovations are critical to 
the Air Force's ability to operate in this fiscally constrained 
environment. Budgetary constraints are motivating our Department of 
Defense, our installations and community partners to re-evaluate the 
way we do business and seek alternatives to the status quo for methods 
to support our missions and maintain quality of life programs for our 
Airmen and their family members. The Air Force can achieve these goals 
by exploring partnership opportunities with stakeholders that include 
local cities/counties/states, utility companies, universities, and 
private sector property managers, developers and financiers. There are 
now 48 installations in the AF Community Partnership Program who with 
their community partners have identified over 1,000 initiatives across 
the spectrum of installation services and mission support; many of 
these initiatives are undergoing further refinement and development 
with potential application Air Force-wide. Initiatives identified to 
date include: agreements with communities to operate waste water 
treatment plants; medical, security, emergency response and civil works 
training; refuse management; grounds or pavements maintenance; 
construction/maintenance of ball fields; operation of Airmen support 
services such as libraries, golf courses and youth programs; and 
airfield operations and maintenance services. There has been much said 
regarding Section 351 (10 USC 2679) and how his new authority will 
facilitate our Department of Defense, our Air Force and the other 
Services to enter into intergovernmental support agreements with local 
governments. It will, since this authority will enable partners to 
provide, receive or share installation support services. However, there 
are many existing authorities that enable us to innovatively partner 
now to include the areas of enhanced use leasing, utility privatization 
and energy initiatives; Federal Acquisition Regulations and financial 
parameters. We want to highlight that the Air Force is committed to 
working with the appropriate DOD offices, the other Services and the 
Small Business Administration to ensure it addresses small business 
concerns consistently. This includes the effects upon small business 
prior to making a secretarial determination and working with local 
communities to mitigate impacts when feasible. More and more you are 
going to hear how the Air Force is committed to innovate and partner to 
achieve our mission and Airmen support goals and objectives.
    Mr. Wittman. The term ``energy security'' is defined by the QDR as 
having ``assured access to reliable supplies of energy and the ability 
to protect and deliver sufficient energy to meet operational needs.''
    a) How is the Air Force developing renewable energy projects on its 
installations that are compatible with this goal, and providing 
redundant power in the event of a failure of the public grid?
    b) How is the Air Force doing on the advanced metering program? Not 
just in regards to the installation of the meters, but also the 
supporting infrastructure necessary to collect the data and use it to 
help manage the installation energy program?
    Secretary Ballentine. a) Traditionally, the Air Force has ensured 
all critical operational power needs through use of emergency 
generators and emergency backup battery systems if commercial power 
fails. Efforts to develop renewable energy projects on Air Force 
installations have historically been driven by economics using third-
party financing mechanisms, and not mission requirements or energy/
mission security. The Air Force is looking beyond financial 
considerations and accepting in-kind considerations that improve its 
energy security posture without increases in the rate it pays for 
electricity, while still pursuing a third-party financing strategy.
    This third-party approach uses Power Purchase Agreements (PPAs) and 
Enhanced Use Leases (EULs) to develop renewable energy projects; both 
are accompanied by either financial benefits or in-kind considerations. 
A recent example of a third party approach that improves Air Force 
energy security is the Phase II solar photovoltaic project at Nellis 
AFB, NV. Under the agreement, the installation will purchase the 
electricity at the tariff rate (i.e., no discounted rate) in favor of 
an in-kind benefit from the Phase II land lease. Specifically, this in-
kind consideration is a $10 million substation and associated feeder 
lines, providing system redundancy. Under this set up, the electricity 
generated by the PV system will flow through the installation before it 
goes to the commercial grid.
    b) Due to financial constraints and technical issues, the Air Force 
was unable to achieve the 2012 target set by 42 USC Sec. 8253 for the 
installation of advanced metering systems. The Air Force has developed 
a Meter Data Management Plan and intends to invest $42 million through 
FY2020 to ensure cyber-secure advanced meter reading systems (AMRS) are 
installed at its highest consumption installations. This plan puts the 
Air Force on track to capture 60% of the Air Force's total energy 
consumption by the end of FY2020. After reaching the 60% milestone, the 
Air Force will conduct a business case analysis to determine whether it 
is cost effective to deploy additional advanced metering systems.
    Mr. Wittman. According to the EIC report, implementing EIC actions 
will not reduce the operational force structure or military 
capabilities in Europe, only excess infrastructure. Please provide 
additional information on how losing the fuel capacity and ramp space 
at RAF Mildenhall in the United Kingdom does not reduce military 
capability in Europe.
    Secretary Ballentine. Military capability in Europe was preserved 
by consolidating missions at installations that have excess 
infrastructure. For example, the Air Force will not compromise any 
military capability by relocating the Special Operations and tanker 
units from RAF Mildenhall to Spangdahlem AB and Ramstein AB in Germany. 
By taking advantage of the excess infrastructure (fuel, ramp space, 
etc) at Spangdahlem and Ramstein, we can divest the costly and 
unnecessary infrastructure at Mildenhall. It should also be noted that 
our EIC analysis also accounted for the infrastructure requirements 
necessary to support current Operational Plans and anticipated 
contingency operations.
    Fuel storage and ramp space requirements being met by RAF 
Mildenhall today will be met by the redeployment of units to 
Spangdahlem AB (CV-22 and MC-130J) and Ramstein AB (KC-135 tankers) in 
Germany.
    Mr. Wittman. The Air Force has again proposed to defer investments 
in facilities sustainment, budgeting across the services at 80% of the 
model, on average, versus the recommended 90%.
    a) Why did the Air Force elect to take risk in the sustainment 
accounts versus more risk in restoration and modernization and 
recapitalization activities?
    b) Can you explain the long-term effect of a delay in funding the 
facility sustainment account?
    c) Can you quantify the current backlog of facility sustainment, 
restoration, and modernization requirements across the Air Force?
    Secretary Ballentine. a) We are not deferring investment in 
Facility Sustainment. We continue to fund Facility Sustainment at 80% 
of the OSD Facility Sustainment model. With our asset management 
principles, we can sustain this level of investment indefinitely.
    b) We use asset management principles to make more effective use of 
existing resources, thereby reducing facility risk. This requires 
improved asset visibility. Based on an increasingly fiscally 
constrained environment, the FY 2016 budget focuses on ensuring 
investment in the most critical facility requirements to support Air 
Force priorities, while continuing to enable streamlining of business 
operations and enhancing operational efficiencies. The Air Force will 
fund Facilities Sustainment at 80 percent of the calculated OSD 
Facilities Sustainment Model (FSM) to continue driving efficiencies 
while ensuring the proper level of support. Centralization and 
prioritization of replacement and repair projects using Asset 
Management tools will ensure investment in the most critical facility 
requirements.
    c) The Air Force's calculated backlog is $11.1B.
    Mr. Wittman. The infrastructure investment accounts have taken a 
large portion of risk the last several years under constrained budgets.
    a) Within the President's Budget in fiscal year 2016, what level of 
risk has your Service taken in infrastructure?
    b) Do you have any examples of failed or failing infrastructure 
based on the risks taken under sequestration and the Bipartisan Budget 
Agreement?
    c) Can you discuss how you are leveraging privatization efforts, 
public-private partnerships, or other innovative authorities to 
mitigate the risk in infrastructure investments and achieve financial 
savings while improving the quality of infrastructure or services?
    Secretary McGinn. A) Department of Navy (DON) installations provide 
the backbone of support for our maritime forces, enabling their forward 
presence and providing our training ranges and care for Sailors, 
Marines and their families. However, the Department is taking risk in 
our shore infrastructure in support of operational readiness. One 
example of this risk is our facilities sustainment levels. The 
President's FY16 budget funds the Marine Corps at 81% and the Navy at 
84% of the Department of Defense facilities sustainment model. The OSD 
guidance is to fund 90% of the requirement. We are aware that 
underfunding facilities sustainment increases the rate of degradation 
of our shore infrastructure, which leads to more costly repair, 
restoration and new construction in the future.
    B) The fiscal challenges we face today will be exacerbated and 
significant challenges will be forced on all Services if FY16 
sequestration reductions are implemented. We continue to evaluate long-
term impacts of sequestration. Although the Marine Corps has made 
significant progress over the last 8 years in replacing old and 
unsatisfactory buildings, delayed or canceled military construction 
projects will have long term impacts on the future operating budget, 
force posture, and the overall welfare of our Marines. The Navy has 
been compelled to reduce funding in shore readiness since FY 2013, and 
as a result, many Navy shore facilities are degrading. At sequestration 
levels, this risk will be exacerbated and the condition of our shore 
infrastructure, including piers, runaways, and mission-critical 
facilities, will further erode. Specific examples of recent failures 
include:
    <bullet>  China Lake Airfield. Deferral of major asphalt overlays 
caused all 3 runways to deteriorate into a compromised state of 
readiness simultaneously. In early 2014, pieces of the crumbling runway 
caused damage to an F/A-18F.
    <bullet>  PAX River Airfield. A SRM project had to be phased due to 
limited availability of funds resulting in delayed restoration and 
increased operational risk. As a result of deteriorated conditions, the 
right door and the external flap of the engine exhaust nozzle on a BF-5 
aircraft was damaged.
    <bullet>  Rota Communications Facility. Due to funding shortfalls, 
the Navy was unable to perform required repairs to the facility. In 
early 2015, the facility suffered extensive flooding due to heavy rain. 
Flooding compromised multiple spaces, with some water entering through 
the foundation walls. This resulted in significant mold, and 
accelerated foundation/structural degradation which could have been 
avoided if repairs had been accomplished in a timely manner.
    If sequestration continues, examples of potential future DON 
impacts include:
    <bullet>  Lack of airfield maintenance will cause foreign object 
debris (FOD) that could damage aircraft
    <bullet>  Lack of pier maintenance could compromise Navy's ability 
to resupply, maintain and deploy ships
    <bullet>  Deferred sustainment of our training ranges impacts 
warfighter training and readiness
    <bullet>  Unresolved HVAC problems can lead to mold and health 
issues in our barracks
    <bullet>  Delaying roof repairs can lead to leaks that will 
deteriorate the building structure and interior, making operational and 
maintenance facilities unusable
    The Department of Defense released an assessment of sequestration 
impacts in an April 2014 report, ``Estimated Levels of Sequestration-
Level Funding,'' and we continue to review and refine this assessment 
as conditions warrant.
    C) We continue to look for ways to leverage private sector 
investment and partner with our community to improve our infrastructure 
and services ashore. Our public/private ventures continue to provide 
quality family housing and the new Renewable Energy Program Office is 
working with industry to establish cost-effective renewable energy 
projects to improve our energy security. However, partnerships will not 
offset the harmful effect of sequestration. A return to sequestration 
in FY 2016 would necessitate a revisit and revision of the Defense 
Strategic Guidance.
    Mr. Wittman. a) The fiscal year 2016 military construction budget 
for the Department of the Navy includes a number of investments in 
energy-related construction projects on Navy and Marine Corps 
installations. Can you explain how these projects either improve 
mission effectiveness or demonstrate a return on investment that 
supports their prioritization over other projects?
    b) The Secretary of the Navy established energy goals that far 
exceed the requirements for the other military services, including 50% 
alternative energy ashore by 2020, 50% decrease in non-tactical vehicle 
fossil fuel consumption by 2015. What is the impetus for these targets, 
and why do you believe this is critical to national security?
    Secretary McGinn. a) The Department's FY2016 budget requests 
several utilities MILCON projects to increase our Energy Security 
ashore and improve the mission effectiveness by providing installations 
with reliable and resilient power. The Department of the Navy has 
accepted risk in our Shore infrastructure in order to support 
warfighting readiness and operations, and the condition and age of our 
utility infrastructure is a special concern. These MILCON projects will 
increase our Energy Security improving our ability to provide reliable 
electrical power to critical infrastructure during normal operations as 
well as during natural or manmade events. The projects are summarized 
below:
    P610, Electric Repairs Piers 2, 6, 7 and 11, NS Norfolk, VA 
$44,254,000 The electrical conduit and cable systems on the double deck 
piers have failed in many locations and continue to have outages caused 
by storms. Without this project, system failures and expensive 
recurring repairs will continue as well as significant life/safety 
concerns for electricians and other personnel in the area will remain. 
Each power failure results in the loss of shore power capability 
requiring vessels to produce their own power.
    P416, PMRF Power Grid Consolidation, PMRF Barking Sands, HI 
$30,623,000 The project will consolidate separate electrical 
distribution systems at Pacific Missile Range Facility (PMRF) Barking 
Sands. Without this project, sharing and distribution of loads as well 
as renewable energy sources throughout the installation would not be 
possible. Providing continuous and reliable electrical power is 
essential for the mission of PMRF which is to provide Training, Tactics 
Development, and Test & Evaluations for air, surface, and sub-surface 
weapons systems and Advanced Technology Systems.
    P614, Upgrade Waterfront Utilities, Norfolk Naval Shipyard, VA 
$45,513,000 The electrical service in Dry Docks 2, 3, and 4 are 
severely undersized, severely inefficient, and were constructed as 
early as 1967. Upgrading the utility systems is imperative to 
maintaining ship repair schedules. Several breaks and outages have 
already occurred and interrupted ship repair schedules. The shipyard 
will continue to lose man-hours to install and remove temporary utility 
systems.
    P715, UEM Interconnect STA C to Mamala, Joint Base Pearl Harbor-
Hickam, HI $6,335,000 The project will install an electrical 
interconnection between former Naval Station Pearl Harbor and former 
Hickam Air Force Base power grids, establish new interconnections of 
high voltage circuits, modernize switch stations, and replace aging 
infrastructure. The project will enable load sharing and optimized 
power distribution across the Joint base, resulting in increased system 
efficiency and reduced energy costs.
    P670, ICS INFRASTRUCTURE, SUBASE Kings Bay, GA $8,099,000 Providing 
continuous and reliable electrical power is essential at SUBASE Kings 
Bay. This project improves electrical distribution reliability and 
redundancy through the installation of programmable, digital protective 
relays. Any unplanned electrical outages delays mission readiness and 
increases fuel use and manpower requirements to produce onsite power. 
Under contingency conditions where commercial power is curtailed, the 
installation can't provide power in an emergency or reliable dispatch 
power from the Central Control Center to all base loads. This project 
also enables faster deployment of repair personnel in the event of a 
water or thermal system malfunction, which will reduce commodity losses 
and mission impacts.
    b) The Navy and Marine Corps' strength is the ability to provide 
presence; to be in the right place, not just at the right time, but all 
the time. That takes energy. The Secretary's goals are focused on 
delivering that presence and increasing our combat capability.
    The goals drive improvements in the energy efficiency of our 
weapons platforms that enable us to go further on a tank of gas or a 
battery charge. That focus on efficiency will be even more important as 
we deploy emerging weapons systems like the rail gun and directed 
energy weapons that will rely on electricity generated by the same fuel 
that powers a ship's engines. The goals promote fuel diversity to 
improve operational flexibility and ensure that we remain interoperable 
with the commercial logistics chain. And, they encourage energy 
efficiency, load shedding, and the use of distributed generation at our 
shipyards and other installations. The energy security and resiliency 
of our installations is critical given the role they play in enabling 
operations and readiness. Fulfilling the secretary's goals decreases 
the chances that we will experience power outages, and enhances our 
ability to recover in the event the grid does goes down.
    Mr. Wittman. The Navy has again proposed to defer investments in 
facilities sustainment, budgeting across the services at 84% of the 
model, on average, versus the recommended 90%.
    a) Why did the Navy elect to take risk in the sustainment accounts 
versus more risk in restoration and modernization and recapitalization 
activities?
    b) Can you explain the long-term effect of a delay in funding the 
facility sustainment account?
    c) Can you quantify the current backlog of facility sustainment, 
restoration, and modernization requirements across the Navy?
    Secretary McGinn. A) Over the last several years, the Department 
has taken risk in our shore infrastructure in order to support 
operational readiness and capabilities. This risk includes both reduced 
sustainment and deferral of many needed projects that restore and 
modernize our facilities, ranges and support infrastructure ashore. Our 
FY2016 budget requests funding to execute most critical projects to 
enable the Department to support the three pillars upon which the 2014 
Quadrennial Defense Review is based: protect the homeland, build 
security globally; project power and win decisively.
    B) We are aware that underfunding facilities sustainment increases 
the rate of degradation of our shore infrastructure, which leads to 
more costly repair, restoration and new construction in the future.
    C) Deferred maintenance backlog for the Department of Navy is 
$41.1B, which includes $38.66B based on the Commander Navy 
Installations Command 2014 annual report and $2.45B based on the Marine 
Corps Installations Command 2014 annual report.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MS. BORDALLO
    Ms. Bordallo. I understand you have partially privatized the 
lodging at Joint Base San Antonio where the Air Force is the operating 
service branch. Since this is a joint base where combining operating 
efficiencies is an important part of reducing costs, can you leverage 
the privatized lodging program to include the Air Force, non-privatized 
lodging? Would doing so extend the privatization benefit across the 
entire installation, support the mission of joint basing and eliminate 
the non-privatized lodging dependency on the Federal Government?
    Mr. Conger. The Army, through their Privatization of Army Lodging 
(PAL), had privatized 983 units on Fort Sam Houston prior to the 
establishment of the Joint Base. It operates under the supported 
component's contract but the function transferred to the Joint Base. 
The Air Force has currently chosen not to exercise the authorities for 
privatized lodging, but retain their lodging as a nonappropriated fund 
(NAF) operation. There is not a plan to include the Air Force 
facilities in the Army PAL inventory at this time.
    Ms. Bordallo. I understand you have partially privatized the 
lodging at Joint Base San Antonio where the Air Force is the operating 
service branch. Since this is a joint base where combining operating 
efficiencies is an important part of reducing costs, can you leverage 
the privatized lodging program to include the Air Force, non-privatized 
lodging? Would doing so extend the privatization benefit across the 
entire installation, support the mission of joint basing and eliminate 
the non-privatized lodging dependency on the Federal Government?
    Secretary Ballentine. The Fort Sam Houston lodging facility was 
included in the Privatized Army Lodging contract, prior to Joint 
Basing. According to the Government Accountability Office (GAO), July 
2010 Report to Congressional Committees on Defense Infrastructure 
titled, ``Army's Privatized Lodging Program Could Benefit from More 
Effective Planning'', the Army's decision to privatize lodging was 
directly related to the poor condition of their facilities and the high 
estimated cost to repair them. The Air Force has maintained a dedicated 
Lodging Fund, separate from the Morale, Welfare and Recreation Fund, 
managed by Air Force accounting and hospitality professionals since 
1974. This allows the Air Force to sustain lodging facilities to mid-
level commercial lodging standards. Our Civil Engineers continue to 
program adequate funding for sustainment, restoration and modernization 
of facilities, resulting in lodging facilities AF-wide that are in 
overall good condition. Looking forward, we've programmed additional 
funds for recapitalization efforts at 15 properties over the next four 
years.
    The Air Force is very engaged in identifying opportunities to 
increase efficiencies and effectiveness in Air Force Lodging. The 
Army's privatized lodging is one model the Air Force is reviewing. We 
continue to analyze their results, and that of other military lodging 
and commercial hotel models to help identify areas for improvement.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. BISHOP
    Mr. Bishop. The Air Force's current Program of Record at Hill AFB, 
Utah associated with Phase 2 of the Falcon Hill Enhanced Use Lease 
(EUL) has the existing location for the Army's Defense Generator and 
Rail Equipment Center (DGRC) being placed outside the Air Force's 
Security Perimeter beginning as early as 2018, making the DGRC 
completely isolated from the rest of Air Force property. This raises a 
number of questions:
    a) What is the Army's plan to construct or otherwise provide an 
adequate security perimeter around the DGRC which meets DOD Force 
Protection standards? Please provide cost estimates, and indicate 
whether these costs are reflected in the Army's FYDP.
    b) How many additional personnel billets will be required for the 
Army to staff its own security perimeter and at what estimated cost?
    c) Since the DGRC will no longer be within the Air Force Security 
perimeter, it will no longer be receiving base support services such as 
garbage and snow removal services from the 75th Air Base Wing. How will 
the Army procure these needed services and at what estimated cost?
    Secretary Hammack. DGRC is a DOD mission for which the Army is the 
DOD executive agent. The DGRC mission is a tenant activity at Hill Air 
Force Base, which is real property managed by the Air Force acting on 
behalf of DOD. Support agreements outline what services are provided 
between DOD components. The applicable support agreement in this case 
includes the provision of security and base operations services by the 
Air Force. The Army does not have any plans to make changes to security 
perimeters, security personnel, or other base support services. These 
matters are the responsibility of the installation host.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. SHUSTER
    Mr. Shuster. I am pleased to hear of your efforts to reduce the 
Navy's energy footprint, as highlighted by its adoption of energy 
efficient tubular LED (T-LED) on board ships. I understand that to 
date, almost 13% of the Navy fleet has converted to T-LED lighting, 
which has been successful and yielded energy and cost savings. In this 
regard, can you please advise on the Navy's efforts to bring T-LED 
lighting to shore on bases?
    Secretary McGinn. The Navy believes strongly in the potential for 
new technologies, including LED lighting, to improve lighting quality 
and reduce energy and maintenance costs on our shore bases. In order to 
enable our adoption of these technologies as quickly as possible, we 
have expanded our use of Energy Savings Performance Contracts (ESPC). 
These contracts allow contractors to identify and install, where 
appropriate, technologies that provide energy savings and also share in 
those savings. We expect LED's to be widely evaluated and used in these 
contracts. We also intend to work with industry to address any 
technical issues relating to the compatibility of existing fixtures 
with T-LEDs. We hope that engagement will enable us to more broadly and 
quickly adopt the technology.
    Mr. Shuster. Given the energy and cost savings that have been 
realized from T-LED lighting on ships, would you agree that the Navy 
should consider revising the uniform facilities criteria (UFC) to allow 
for the option of T-LED technology on bases?
    Secretary McGinn. The existing Unified Facilities Criteria (UFC) 
supports the installation of T-LED systems in new construction. The UFC 
also supports the replacement of existing lighting systems with T-LED 
systems (full fixture and tube replacement). In the case of 
retrofitting non-LED fixtures with T-LED bulbs, we intend to work with 
industry to address any technical issues relating to the compatibility 
of existing fixtures with T-LEDs. We hope that engagement will enable 
us to more broadly and quickly adopt the technology.

                                   [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
